<html>
<title> - U.S. PACIFIC COMMAND POSTURE</title>
<body><pre>[Senate Hearing 107-]
[From the U.S. Government Printing Office]



 
                      U.S. PACIFIC COMMAND POSTURE
=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                      APRIL 3, 2002--HONOLULU, HI

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                       U. S. GOVERNMENT PRINTING OFFICE
80-485                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

                        Subcommittee on Defense

                   DANIEL K. INOUYE, Hawaii, Chairman
ERNEST F. HOLLINGS, South Carolina   TED STEVENS, Alaska
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        CHRISTOPHER S. BOND, Missouri
RICHARD J. DURBIN, Illinois          MITCH McCONNELL, Kentucky
HARRY REID, Nevada                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas

                           Professional Staff

                            Charles J. Houy
                              Susan Hogan
                              Tom Hawkins
                            Robert J. Henke
                             David Morrison
                              Lesley Kalan
                               Menda Fife
                            Mazie R. Mattson
                      Steven J. Cortese (Minority)
                        Sid Ashworth (Minority)
                       Kraig Siracuse (Minority)
                       Alycia Farrell (Minority)

                         Administrative Support

                              Nicole Royal

                        Betsy Schmid (Detailee)






                            C O N T E N T S

                              ----------                              
                                                                   Page

Statement of Admiral Dennis C. Blair, USN, Commander in Chief, 
  Pacific Command, Department of Defense.........................     1
Opening statement of Senator Daniel K. Inouye....................     1
Statement of Senator Ted Stevens.................................     4
War against terrorism............................................     6
People's/readiness...............................................     7
Transformation...................................................     8
Tribute for support..............................................     8
Prepared statement of Admiral Dennis C. Blair....................     9
Combating terrorism in the Asia-Pacific region...................     9
Other regional developments......................................    12
POW-MIA efforts in southeast Asia................................    16
Theater security cooperation.....................................    17
Readiness and resources..........................................    20
USPACOM Force transformation.....................................    25
Unified command plan.............................................    28
Indonesia........................................................    30
China............................................................    31
Indonesia........................................................    32
Northern Edge....................................................    33
C-17.............................................................    34
TRANSCOM.........................................................    35
IMET.............................................................    36
Korea............................................................    37
Armed Forces.....................................................    38


                      U.S. PACIFIC COMMAND POSTURE

                              ----------                              


                        WEDNESDAY, APRIL 3, 2002

                               U.S. Senate,
                           Subcommittee on Defense,
                               Committee on Appropriations,
                                                      Honolulu, HI.
    The subcommittee met at 10:15 a.m., at the Federal 
Courthouse, 300 Ala Moana Boulevard, in Courtroom Aha Kupono, 
Honolulu, HI, Hon. Daniel K. Inouye (chairman) presiding.
    Present: Senators Inouye and Stevens.

                         DEPARTMENT OF DEFENSE

STATEMENT OF ADMIRAL DENNIS C. BLAIR, USN, COMMANDER IN 
            CHIEF, PACIFIC COMMAND


             opening statement of senator daniel k. inouye


    Senator Inouye. Good morning. This morning the subcommittee 
will receive testimony from Admiral Dennis C. Blair, Commander 
in Chief of the Pacific Command (CINCPAC).
    The United States Pacific Command is the largest U.S. 
military regional command that stretches from the west coast of 
the United States to India.
    More than 300,000 U.S. military personnel are assigned to 
this command. It's an area of many challenges and many 
opportunities. Forty-three nations are in its area of 
responsibility.
    Seven of the world's eight largest armies are in this area. 
Three of the world's most populous nations are in this region. 
It is an area of rapid economic growth, but also the home of 
many impoverished nations. It is a region with many emerging 
democracies, but also one with totalitarian regimes who still 
threaten their neighbors.
    In the Pacific, one finds thorny territorial disputes such 
as the Spratly Islands, and long simmering tensions between 
such places like Taiwan and China, North and South Korea.
    A fact unknown to most Americans is that Asia is home to 
the country with the world's largest Muslim population, 
Indonesia. Yet, with all of these challenges of potential 
problems, it's been a region of relative peace and calm. At 
least for 30 years, there have been no major conflicts in this 
theater.
    The leaders in every nation in the Pacific know that the 
key factor which has given us this generation of peace is in 
the Pacific Command, Admiral Blair.
    Unlike Europe, there's no North Atlantic Treaty 
Organization (NATO) keeping the peace and deterring aggression. 
In Asia, it is up to you, Admiral.
    The Pacific Command has maintained a military force 
necessary to deter any threats. Equally important, the U.S. 
military has been engaged in peaceful cooperation every day in 
the region. This combination of deterrence and engagement is 
the reason for the generation of peace.
    A decade ago, after the Philippines requested that our 
military forces leave that nation, Senator Stevens and I led a 
delegation to Asia to discuss our relationship with the many 
nations in that region. We traveled from Australia to South 
East Asia up to China meeting with the heads of state of all of 
these countries. At each stop, whether it was Xi'an or Beijing 
or Sydney or Tokyo, or Manila, when we asked do you want the 
United States to stay or leave the region, each one, close 
allies and past and potential adversaries alike, the answer was 
the same. The United States must stay engaged in Asia. That was 
their response. We must maintain our military presence in that 
region. They all knew if the United States withdrew from the 
region, there would be chaos. Arms races would begin, regional 
hegemony would grow, and each nation worried where it would 
end.
    We returned to Washington and reported to our leaders that 
we could not take the action by the Philippines as a sign that 
it was time to pull back. To its credit, the first Bush 
administration responded to our concerns. They went out and 
found ports and airports for the United States Navy and Air 
Force in Singapore and Thailand. By taking action, the 
administration was able to assuage the concerns in the region.
    Over the past 2 weeks, Senator Stevens and I traveled again 
to Asia, this time to China, Beijing, Xi'an Siang, Kunming, 
Singapore, Indonesia, Jakarta, and Manila, Philippines. At each 
stop, we heard the same thing. The United States must stay 
engaged in the region. We must maintain our military posture. 
We must keep our cooperative engagement strategy.
    I note this because 5,000 miles away from here, there's 
some in Washington who are taking a new look at the region and 
are considering changes.
    The reaction to the tragic events of last September 11th 
have forced all of us to reconsider how we will defend against 
terror. This is necessary and beneficial.
    Unfortunately, some think we should recreate a fortress 
America. Ensuring the defense of the homeland is essential but 
the execution of that goal cannot come at the expense of our 
leadership role in the world.
    The world has changed since last September but we must be 
sure we're making the right decisions in our response to 
terrorism; not overreacting, sealing our borders and retreating 
behind closed doors. We must be prepared and willing to root 
out terrorism. We should realize, however, it is at least as 
likely to be found here in the Pacific, outside of our borders, 
as anywhere else in the world.
    I returned from Asia more aware than ever before that this 
is not the time for changes in our forces, in our Nation.
    In China, we heard from leaders who will not renounce the 
use of force against Taiwan.
    In Singapore, we learned about a terrorist attack plot that 
was nearly carried out against our military in that nation.
    In Indonesia, we learned about fundamental Islamic leaders 
that are allied with al Qaeda. We heard about those that view 
Osama bin Laden as a lightweight in the Jihad against Jews, 
Christians and Americans. We heard the rhetoric from those that 
think Indonesia should be called an Islamic state, not unlike 
the Taliban in Afghanistan.
    In the Philippines, we received a briefing from our 
military leaders that are engaged with the Philippine 
Government to defeat terrorists.
    Admiral, we come back here sobered by these concerns.
    To those who believe we can withdraw from the region, we 
say nonsense. To those who say we can defend our interest in 
the region by threatening the use of nuclear weapons instead of 
by positioning our forces here on a day-to-day basis, we say 
you are risking catastrophe. To those who say we need to pull 
back to protect our borders, we say our interests will be at 
greater risk by allowing the growth of instability in the 
region than by any single group of terrorists.
    For every terrorist we stop inside our borders, 100 will be 
trained in this region if we turn our backs on the people and 
the governments who are in need of our support.
    The roots of terrorism are poverty, ignorance and 
instability. We cannot defeat terrorism if we stop engaging 
with these nations, if we stop carrying out our message of 
democratic freedoms to these people.
    This command has been very active working with the nations 
in this region in this way:
    Building up alliances and friendships, teaching the 
benefits of democratic freedoms, and demonstrating to emerging 
nations the important role of civil military relations. These 
activities help to minimize instability and restrain the 
development of new terrorists.
    The relationship developed by your command, sir, and 
created by many new friendships in the region, they led to 
unprecedented support by the nations in Asia following the 
attack on the United States. It was an Asian nation that came 
to our support. Number one was the Philippines.
    For the United States to retire behind our borders to 
ignore the rest of the world would be a tragedy. It would 
jeopardize the progress we have made in this region. It would 
certainly lead to instability, if not chaos.
    Our leaders must also remember that a peaceful Asia is 
critical to the United States economy. Trade with the countries 
of Asia is increasingly important to the United States. Each 
day more jumbo jets fly towards Asia from the United States 
than toward any other region of the world.
    Free commerce can only be guaranteed by having the United 
States military engaged in peaceful cooperation with our allies 
and deterring aggression through our presence.
    And so I would caution those who look for short-term 
savings by reducing our presence in the region. I question the 
wisdom of reassigning forces critical to the conduct of day-to-
day activities in this region for some other purpose. I reject 
the notion that we can reduce our military leaders' authority 
to manage forces in the region without increasing risk.
    Homeland defense is important, but we will not be able to 
defend the homeland if we fail to meet our commitments abroad; 
if we fail to deter terrorism and aggression; if we allow 
regional tensions to explode; or if we allow regional hegemony 
to recur through our inattention.
    Admiral Blair, I know I'm preaching to the choir. You have 
been a stalwart proponent of cooperative engagement in this 
region. You have used the military forces under your control to 
deter hostilities very effectively.
    We look forward to your testimony today informing us how 
the Pacific Command is functioning. We hope to hear about your 
shortfalls. We hope to learn how you are engaged in fighting 
the war on terrorism and how you would cope if fundamental 
restructuring were to occur with the forces under your 
jurisdiction.
    However, before I call upon you, I would like to recognize 
the co-chairman of this Committee, a man of great insight, a 
man I admire very much, the senior Senator of the State of 
Alaska, Senator Ted Stevens.


                    statement of senator ted stevens


    Senator Stevens. Thank you very much, Mr. Chairman.
    Admiral, as you know, Senator Inouye and I and our staffs 
have returned again from another long and arduous trip. Earlier 
this year, we went to look in on the war zone of the war 
against the terrorism and to Pakistan, Afghanistan, Uzbekistan 
and then on to Rome to visit with the world food program to 
determine what they're going to do to meet some of the needs 
that we saw there.
    This trip we've just returned from has been an awesome one 
in many respects in terms of the depth of knowledge of this 
area of the problems we face now, they have faced for so long, 
the problems of fundamentalist just rogue type of activity. And 
it was a very interesting trip.
    But we've returned now and happy to have a chance to visit 
with you. Your record as Commander in Chief here in the U.S. 
Pacific Command is one of distinguished accomplishment and 
success. Some in Washington have questioned the engagement 
policies at the center of our relations in this region. The 
role of this command in response to the attacks of September 
11th have revalidated the approach you have taken here. And 
we've seen that all over this region. The flow of support for 
Operation ENDURING FREEDOM move through the Pacific because you 
were able to rapidly secure access for our aircraft, our ships 
and our personnel.
    That success is entirely the result of years of cooperative 
training, exercises, military exchanges, and the international 
military education and training (IMET) relations. Our Committee 
has sought to support and enhance these efforts through the 
Asia Pacific regional initiative, the new counterterrorism 
training fund, and expanding IMET funding. These are the tools 
we can and have given you and we look forward today to learning 
more about how you have used those tools and what you may need 
for next year and then the years to come.
    On a personal note, Admiral, you've been a welcome neighbor 
and a frequent visitor to our forces and military personnel in 
Alaska. And we have welcomed you and I thank you for your 
consideration. Your commitment in the expansion of NORTHERN 
EDGE exercises and COPE THUNDER training have kept Alaska at 
the forefront of military training and experimentation.
    In partnership with General Shinseki, the Army Chief, and 
Lieutenant General Smith, the Commander of the U.S. Army of the 
Pacific, for the Army's new Interim Brigade Combat Teams 
(IBCT), will be based in Alaska, Hawaii, Fort Lewis and 
dedicated to your command.
    You have also endorsed significant quality of life 
improvements for the military families in Alaska, including the 
housing privatization at Elmendorf Air Force Base and the new 
hospital under construction at Fort Wainwright. Any one of 
these achievements would be an appropriate highlight for a 
person's tenure. The combination of these and more reflect your 
personal leadership and focus on the future. As much as we want 
to thank you for what you've done, we very much want to use 
this final hearing with you to consider what we should 
contemplate for the future.
    As the chairman has indicated, these recent travels through 
China, Singapore, Indonesia, and the Philippines make clear 
that our presence in this region may become more critical in 
the days ahead. It certainly is my conclusion also.
    I want to especially commend the effort led by General Don 
Wurster, Commander of the Joint Task Force (JTF) 510 and the 
coordinator of our counterterrorism exercises in the 
Philippines.
    It was clear during our visit the great work underway in 
the Philippines and the personal leadership demonstrated by 
General Wurster in that effort.
    We must remain vigilant to ensure that forces assigned and 
availed support our security interest in this vast region are 
not held hostage or just diminished in response to new priority 
for homeland defense.
    The best investment we can make in homeland defense is a 
stable economically prosperous and increasedly democratized 
Asia Pacific region.
    While some in Washington, especially the Department of 
Defense, seem slow to recognize that dynamic, you can rest 
assured that the two of us here today will be relentless in 
carrying that message back to Washington. And, as you know, 
we've carried it there already.
    I look forward to your statement this morning. And, once 
again, I'm grateful to the chairman for allowing us to join him 
here in Hawaii. We may not have this opportunity to be with you 
again, Admiral, although there are still some months ahead. God 
willing, you'll be free of us for the rest of your tour here. 
But we continue to return to you for advice and counsel and I 
want you to know that that advice will be accepted by the two 
of us no matter where we are and where you are. Thank you very 
much.
    Senator Inouye. Thank you very much, Chairman Stevens. We 
call each other chairman because we just exchange seats, as you 
know. This here is my turn.
    Senator Stevens. He just won't admit it, there was a 
revolution.
    Senator Inouye. On our trip, Admiral, everyone spoke about 
you with the highest regard. Military commanders, people in 
State governments and such. And now, if I may, I'd like to hear 
your views on what is happening in this area of responsibility 
of yours.
    Admiral Blair. Thank you, Mr. Chairman, Mr. Co-Chairman. It 
is an honor to receive you here but it's not an honor that 
surprises any of us who have observed you over the years. You 
take what is supposed to be breaks from a pretty hectic 
schedule there in the Capitol and you go out and you refresh 
your knowledge of this part of the world. And I think you, in 
that fashion, are really about the most valuable people we have 
in terms of understanding what is really going on in this part 
of the world.


                         war against terrorism


    And we've been busy out here with the Pacific Command 
Forces in the last year, in the last months. The combat phase 
of our war against terrorism, which began last fall, included 
many forces from the Pacific here, the U.S.S. Carl Vinson 
Battle Group, the U.S.S. Kitty Hawk Battle Group, the U.S.S. 
John C. Stennis Battle Group, which is still on station, many 
patrol aircraft flying in that region, the U.S.S. Pelelieu and 
U.S.S. Bonhomme Richard Amphibious Ready Groups and the 15th 
and 13th Marine Expeditionary Units, embarked and Air Force 
bombers flying out of our Pacific Command base in Diego Garcia.
    As you mentioned, our allies, together with a broad range 
of regional security partners, quickly stepped forward to 
support the campaign against terrorism. They offered overflight 
rights, the use of facilities for Operation ENDURING FREEDOM. 
Several, including Australia, Canada, and New Zealand offered 
combat troops to participate. Support forces were offered by 
Korea and are participating today. And then a great new 
departure, Japan, which had to pass special legislation to do 
so, offered forces which are now supporting U.S. Navy ships.
    In the Pacific, we've also gone over on to the offensive 
against terrorism. And our mission is to eliminate al Qaeda and 
its support.
    As you learned on your trip, we have strong support there 
from allies and partners. They have averted terrorist 
operations in progress. There have been over 100 arrests in our 
part of the world.
    The key to success is relentless pursuit and an 
unprecedented degree of cooperation among the nations of the 
Asia Pacific region. No country has moved more aggressively 
than the Philippines. We do not want a Taliban style regime in 
the southern part of that country and the Philippines don't 
either.
    To support them, we have been providing advice, training, 
material assistance, and other forms of support to the Armed 
Forces of the Philippines to eliminate the Abu Sayyaf Group 
(ASG), which not only has links to al Qaeda but also holds two 
American missionaries hostage.
    Our Joint Task Force there in the Philippines, the 
commander you met, is currently our largest military operation 
ongoing against terrorism in the Pacific.
    But as we take on these new roles of combating terrorism, 
our long-standing missions still remain. The Taiwan Strait 
military balance, North Korea, which is starving its populous 
while selling missiles, sustained tensions between nuclear 
neighbors India and Pakistan, all of these keep the U.S. 
Pacific Command busy maintaining deterrence through readiness 
and also through theatre security cooperation.


                           people's/readiness


    So let me turn to those Pacific Command forces themselves 
and to their readiness, and readiness begins with people. I'd 
like to thank you, on their behalf, for supporting our men and 
women in uniform. This year saw the largest pay raise in two 
decades and it takes a large step towards decreasing that pay 
gap between the Armed Forces and the private sector. Our people 
know that those of you in leadership positions in Congress care 
about them.
    In this high operating tempo (optempo) world, we need to 
continue to work on other financial stress points. Our forces 
in Korea routinely run hardships for which there is inadequate 
compensation and elsewhere in the Pacific, many of the little 
things, like moving pets, an additional car, all of these add 
up when you're overseas. And affordable quality education for 
our military families who are stationed out here is always a 
top concern.
    We've had to bring additional people into the Pacific 
Command following the 11th of September. Most of them from the 
Reserve Component, and they've performed magnificently. And 
they're critical to our ability to get the job done.
    Our estimate is that if we continue at our current level we 
need approximately 5,000 additional billets throughout the 
Pacific Command to wage this war against terrorism for as long 
as it continues. And while this war continues, we would be hard 
put to cut active duty billets from our operational 
headquarters when assigned personnel are working long hours to 
fight this war.
    Our ships, planes and ground equipment performed 
magnificently in battle in Afghanistan. And that was a tribute 
both to the people who maintain and operate them and to the 
investments in readiness that we have made in recent years. And 
we will require continued sustained funding for operations and 
maintenance of select forces which have been rode hard and put 
away wet during this campaign.
    I'm talking in particular about the Navy and Marine Forces 
which have been deployed, Special Operating Forces which have 
been heavily used, intelligence, surveillance, and 
reconnaissance forces and airlift. And we also require 
replenishment of ammunition stocks, especially of precision 
munitions.
    Theatre security cooperation with our allies and partner 
nations has never been more important.
    I agree completely, Mr. Chairman, with your remarks because 
I find that most of our U.S. interests in this part of the 
world are also shared interests with other allies and partners. 
And some of our partners and allies, in particular the 
Philippines, will need continued assistance to defeat the 
international terrorists in their territory, which also is in 
the interest of the United States.


                             transformation


    Finally, transformation of the Armed Forces is an important 
area of interest to this command. In the Pacific, we've made 
significant improvements to the speed of formation of task 
forces and the speed of decision of our Joint Task Forces.
    And I urge this subcommittee not to settle for 
transformation measured in years but to insist on progress in 
months through building on our operation and exercises to 
attack real missions, and especially those missions which we 
face as regional Commanders-in-Chief.
    And I urge you to keep an eye on the condition of our 
bases, camps and stations. These are sort of the ``canaries'' 
in the coal mine. As we've discussed before, they're the real 
indicators of whether that readiness funding is getting all the 
way down to the field.
    We're not working down the backlog of deferred maintenance 
in the Pacific Command. Far too many of our family homes, 
barracks, buildings and utilities in places like Schofield 
Barracks, Camp Pendelton, Elmendorf Air Force Base, Pearl 
Harbor Naval Shipyard, are old and shabby, and we owe our 
people first class facilities in which to live and work.


                          tribute for support


    I believe this is an appropriate time to pay special 
tribute to two men who have left an indelible mark on the U.S. 
Pacific Command, both of them honored veterans from World War 
II, an infantry man from Hawaii who earned the Medal of Honor 
with the 442d and an Alaskan pilot who earned two Distinguished 
Flying Crosses supporting the Flying Tigers in the China, 
Burma, India theater.
    And I would like to thank you both for being our champions 
in many ways. You each know what it is to be in uniform. You 
let our people who are now in uniform know that you remember 
and that you care and you continue to serve magnificently in 
many, many ways.
    Your persistence in pushing for what we need here in the 
Pacific has been a key in ensuring that we are properly 
positioned for support of U.S. interest in this very important 
part of the world.
    Because of you, our Nimitz-McArthur Pacific Command 
headquarters at Camp Smith is going vertical. It will replace a 
World War II era hospital where I now work that doesn't meet 
modern seismic codes and that has to rely on termites to 
provide the holes for putting a fiberoptic cable through. Soon 
we'll be operating in a 21st century structure built around a 
backbone of command, control and communications infrastructure 
which will let us get our job done to support our people out in 
the field.
    And there's work and then there's home. Those beautiful new 
family housing developments at Pearl Harbor have been welcomed 
by our Navy families who live there. And as you continue to 
support the Armed Forces with future improvements that are now 
scheduled to fix shabby and dangerous infrastructure, we will 
see continued improvement in all of these places that we 
mentioned.
    What's so remarkable is that as members of the ``greatest 
generation'' in addition to taking pride and remembering the 
past, you look to the future, and we all appreciate that. 
George Bernard Shaw once wrote, ``The reasonable man adapts 
himself to the world. The unreasonable one persists in trying 
to adapt the world to himself. Therefore all progress depends 
on unreasonable men.''


                           prepared statement


    And thank you, Senator Inouye and Senator Stevens, for 
being two unreasonable men for so many years and making so much 
happen. It's an honor to appear before you this morning. I look 
forward to your questions and our discussions. And again, I 
thank you for coming out to this theatre to see what's really 
going on.
    [The statement follows:]
             Prepared Statement of Admiral Dennis C. Blair
                              introduction
    Mr. Chairman and Members of the Committee: On behalf of the men and 
women of the United States Pacific Command, I thank you for this 
opportunity to testify on security in the Asia-Pacific region.
    Incidents and action drove the year 2001 for the U.S. Pacific 
Command (USPACOM). In February, U.S.S. Greeneville collided with and 
sank the Japanese fisheries training vessel Ehime Maru, resulting in 
the loss of nine Japanese lives. Soon after, a Chinese fighter jet 
collided with one of our EP-3s, resulting in the loss of the Chinese 
pilot and the detention of our crew on Hainan Island for 11 days. 
During this time, seven USPACOM personnel from Joint Task Force-Full 
Accounting died in a helicopter crash in Vietnam. Then came the 
terrorist attacks of 11 September. We have gone on the offensive 
against terrorism while sustaining our readiness, improving the 
readiness of regional forces to contribute to coalition operations, and 
transforming the capabilities of our forces. The men and women of 
USPACOM have been busy.
    We cannot provide adequate protection to our citizens and our 
forces while only playing defense. Since 11 September, combating 
terrorism on U.S. territory and throughout the Asia-Pacific region has 
been USPACOM's top priority. We are succeeding, largely as a result of 
cooperation among many nations.
    Countering terrorism has accelerated security cooperation in the 
Asia-Pacific region, but has not fundamentally altered the region's 
security challenges. A secure, peaceful and prosperous Asia-Pacific 
region remains very much in the interests of America and the world. An 
uncertain Asia will present crises and dangers. We continue to base our 
power and influence on our values, economic vibrancy, our desire to be 
a partner in this critical region, and our forward-stationed and 
forward-deployed forces of USPACOM.
    Overall, we are in better shape than we were a year ago. We have 
gone on the offensive against terror organizations we did not know the 
name of a year ago. Although there are persistent deficiencies, 
particularly in facilities upkeep and replenishment of precision 
weapons, our readiness is on its way to a satisfactory level. If we can 
maintain our momentum, the future is bright for the U.S. Pacific 
Command.
             combating terrorism in the asia-pacific region
International Terrorism in the Asia-Pacific Region
    The terrorist threat in the Asia-Pacific region (APR) consists 
primarily of local groups with links to al-Qaida that are hostile to 
the United States and our friends. These groups have plotted attacks 
against American forces, embassies, and other citizens, and have 
provided transit assistance to al-Qaida members. Our understanding of 
the threat has increased greatly since 11 September, as we brought more 
intelligence resources to bear and shared intelligence with other 
countries. Jemaah Islamiyah, which has plotted against United States 
and other nations' citizens, vessels and facilities in Singapore, is 
one group of concern. The Governments of Singapore and Malaysia moved 
quickly against this al-Qaida-linked group. Continued vigilance, 
actions such as this, and enhanced cooperation among governments, will 
keep terrorists on the run and root them out over time.
    At present, no ``Afghanistans''--sanctuaries for active terrorist 
organizations with governments fully supporting them--exist in this 
Area of Responsibility (AOR). Governments throughout the region 
fundamentally support the campaign against international terrorism. 
Each country in the region faces different circumstances and unique 
challenges, and each has varying capabilities in contributing to the 
international war on terrorism. Domestic political considerations are 
factors in countries such as Indonesia and Bangladesh. However, nations 
in this region are cooperating with the United States in many different 
ways, and this cooperation is succeeding against international 
terrorism.
    We have actively engaged our regional partners to support Operation 
ENDURING FREEDOM (OEF) in Afghanistan. Our Asia-Pacific allies and 
regional partners have condemned the terrorist attacks of 11 September, 
and many are contributing resources. We appreciate the many military 
contributions of our allies and regional partners, Australia, New 
Zealand, Japan and the Republic of Korea.
    Australia invoked the ANZUS Treaty immediately following 11 
September for the first time in the 50-year history of this treaty. In 
addition to its ongoing naval contribution to Maritime Interdiction 
Operations supporting U.N. Security Council Resolutions against Iraq, 
Australia provided additional ships to the Arabian Gulf and aircraft to 
Diego Garcia. Australia was one of our first allies to deploy ground 
troops to Afghanistan. New Zealand has provided a contingent of its 
Special Air Service for operations as well.
    The Government of Japan has implemented major policy and 
legislative changes to allow Japan to provide force protection and 
logistical support to U.S. installations in Japan. The Japan Air Self 
Defense Force has flown relief missions to Pakistan and lift missions 
for our forces in the USPACOM AOR. For the first time since World War 
II, the Japan Maritime Self Defense Force is at sea far from Japanese 
waters, providing fuel and other support to coalition naval forces.
    The Republic of Korea (ROK) is providing air and naval logistic 
support to OEF. Several other countries have given overflight rights 
and seaport and airport access to our aircraft and ships.
    The bottom line is that our previous bilateral and regional 
cooperation with the countries of the APR has paid off in valuable 
cooperation with regard to the war on terrorism.
Antiterrorism Efforts--Defense
    USPACOM's Force Protection Program has effectively protected our 
armed forces and supported civilian authorities throughout the Asia-
Pacific region since the 11 September terrorist attacks. We activated 
Joint Rear Area Coordinators (JRACs) to counter the threat and 
accelerated the Critical Infrastructure Protection (CIP) Program.
    JRACs integrate the defensive measures by all the military units in 
the same location--Hawaii, Alaska, Guam, Japan and Korea. In addition, 
they coordinate Department of Defense (DOD) efforts with federal, 
state, and local agencies. JRACs have written and exercised plans and 
are fielding the Area Security Operations Command and Control (ASOCC) 
system. Over the past year, we have made significant progress 
identifying and protecting critical infrastructure by making CIP part 
of all major exercises and using JRACs to protect critical assets. We 
are also accelerating the fielding of the Pacific Mobile Emergency 
Radio System in Hawaii and Alaska to improve coordination efforts 
between civilian authorities and their JRAC counterparts. USPACOM's 
JRACs and CIP program are widely recognized as the model for 
interagency coordination, combined scenario-based training events, and 
unprecedented cooperation and information sharing.
    Following the attack on the U.S.S. Cole, USPACOM began a full 
reassessment of vulnerabilities at foreign ports we visit. We have 
established plans and increased deployable security measures at all 
these ports. To date, we have completed 25 force protection memoranda 
of agreement (MOA) with U.S. embassies, including MOAs with embassies 
in India, Russia, Singapore, Malaysia, the Philippines and China. These 
agreements clearly delineate U.S. responsibilities for all our military 
forces in Asia-Pacific countries.
    A major challenge is to sustain these intense efforts over the 
long-term. Substantial resources are required to maintain higher Force 
Protection Conditions (FPCONs) that will be a way of life for many 
years to come.
    As long as we are engaged around the world, terrorists will look 
for soft spots for further attacks. On every deployment, every exercise 
and especially now at home stations, force protection is an essential 
mission.
Counter-terrorism--Offense
    USPACOM forces--U.S.S. Kitty Hawk, John C. Stennis, and Carl Vinson 
battlegroups, patrol aircraft, and U.S.S. PELELIU Amphibious Ready 
Group with the 15th and 13th Marine Expeditionary Units--played major 
roles in the successful Afghanistan campaigns. At the same time, we 
have gone on the offensive in the Pacific region.
    We have already deployed personnel to U.S. embassies in the 
Philippines, Indonesia, Malaysia and India to better integrate our 
operations with interagency country teams. We have established a 
Directorate for Counter-Terrorism to fuse all sources of intelligence, 
to plan and coordinate operations, and to begin true interagency 
integration across the region. We have sent equipment and an assistance 
team to the Philippines. Our Joint Intelligence Center Pacific (JICPAC) 
has rapidly improved its support to the counter-terrorism mission. 
Analytical depth and breadth of the terrorism threat in the AOR has 
significantly improved, with increased collection, analysis, and 
reporting in this area.
    To build coalition support for our offensive efforts since 11 
September, I have visited the Philippines, Thailand, Malaysia, 
Indonesia, India, Singapore, Japan and Korea, and met with each 
country's U.S. ambassador, and key senior government and military 
leaders to discuss our intentions, and how their support can help. The 
response to our plan has been positive, and we are building capability 
to act with other countries against terrorism.
    We continue to foster interagency participation in our planning and 
operations. While our counter-terrorism cell includes a Joint 
Interagency Coordination Group to seamlessly interconnect with the 
national architecture as it is established, a Joint Interagency Task 
Force with direct tasking authority that transcends agency stovepipes 
would be a more effective organization.
USPACOM Requirements for the War against Terrorism
            Manpower
    Legislation mandating a 15 percent headquarters manpower reduction 
over 3 years was passed before 11 September. As we launched the war on 
terrorism, we brought additional Reserve Component (RC) personnel on 
board to handle the increased workload. On 12 October 2001, the Deputy 
Secretary of Defense waived the fiscal year 2001 10 percent 
headquarters manpower reduction. As long as the war on terrorism 
continues, there will be more requirements for intelligence, 
operations, logistics, communications, and planning officers on USPACOM 
combatant headquarters staffs.
    The war on terrorism has created new manpower requirements. Over 
5,000 additional billets are needed to address the full range of force 
protection, antiterrorism, and counter-terrorism missions throughout 
USPACOM. Examples of additional manpower requirements include increased 
shore and harbor security patrols in response to enhanced Force 
Protection Conditions (FPCONs), additional teams to assess security of 
foreign ports and airfields we visit, and around-the-clock manning of 
JRACs and crisis action teams. We are working to address these manning 
and management challenges from within existing endstrength levels.
            Combating Terrorism Readiness Initiatives Fund (CBT RIF)
    Funding obtained through CBT RIF continues to play a major role in 
addressing emergent requirements. This initiative provides the 
geographic CINCs additional avenues for resourcing against emerging 
threats. Some examples of USPACOM funded CBT RIF projects include 
weapons/metal detectors and explosive vapor detectors for Marine Corps 
Base Okinawa and blast mitigation windows for Yongsan Base in Korea. 
USPACOM received $3.95 million in CBT RIF funding in fiscal year 2001. 
USPACOM received nearly $3.9 million more in the first allocation of 
fiscal year 2002 funding, including $850,000 for U.S. Forces Korea 
(USFK). However, USPACOM still has over 1,070 unfunded Anti-Terrorism 
Force Protection (ATFP) projects totaling nearly $1.5 billion to 
achieve full compliance with current standards. Service funding will 
meet some of these requirements, but the CBT RIF program fills the 
gaps.
            Foreign Military Financing (FMF)
    FMF is an essential tool for our allies and partners to improve 
their capabilities against international terrorist groups and their 
supporters. A detailed discussion of FMF funding requirements, with 
particular emphasis on FMF for the Philippines, is included later in 
this statement.
                      other regional developments
Australia
    Australia remains America's oldest ally in the Asia-Pacific region. 
Last year we celebrated the 50th anniversary of our defense treaty. 
Australia's steadfast support has been a key facet of our counter-
terrorism campaign in the Asia-Pacific region.
    Australian armed forces remain in the lead role in East Timor and 
in the shaping of East Timor's new defense force. In addition, 
Australia maintains an important presence in Papua New Guinea, 
Bougainville and the Solomon Islands, ensuring peace and security in 
these problematic areas. The Australian government has been active in 
promoting the return of democracy in Fiji and security and peaceful 
development throughout the archipelagic states of Southeast Asia and 
the South Pacific.
    Our relationship with Australia is mature and as strong as it has 
ever been. USPACOM works hard through bilateral and multilateral fora 
to keep the ANZUS Treaty relationship with Australia healthy and 
looking forward. We are currently conducting a strategic top-down 
interoperability study with Australia's armed forces. It will return 
great long-term dividends in acquisition, information technology, 
operations, research and development, and further strengthening the 
relationship with this trusted ally.
Japan
    Japan hosts nearly 41,000 U.S. armed forces personnel and 14,000 
additional sailors afloat with the Seventh Fleet. It contributes $4.57 
billion in host-nation support, the most of any U.S. ally. These 
forward-stationed and forward-deployed forces are key to the U.S. 
commitment to defend American interests throughout the Asia-Pacific 
region. The U.S.-Japan alliance is the cornerstone of U.S. security 
interests in Asia and fundamental to regional security and peaceful 
development.
    Over the past year, Japan and the United States have made steady 
progress in strengthening our alliance. We signed the first bilateral 
defense plan under the 1997 revised Defense Guidelines. It incorporates 
additional Japanese support for U.S. operations, and opens new areas 
for defense cooperation.
    After 11 September, Japan passed historic legislation to assist 
U.S. combat operations. For the first time since World War II, Japan 
sent its Self-Defense Force (JSDF) overseas to support a combat 
operation and work with other countries in a U.S.-led coalition.
    JSDF roles and capabilities are evolving to meet future challenges. 
In addition to Japan's military contribution in support of OEF, the 
JSDF will deploy a 700-member engineer battalion to East Timor in March 
2002, and will continue to provide a 45-man transportation unit as part 
of the Golan Heights U.N. Disengagement Observer Force. The JSDF has 
also worked closely with USPACOM components in restructuring bilateral 
exercises to develop skills for humanitarian assistance; search and 
rescue; non-combatant evacuation; consequence management for chemical, 
biological and nuclear incidents; and complex contingency operations 
likely to occur in the future. I am also encouraged by the increased 
attention the JSDF is giving to cooperating with regional armed 
forces--the ROK in particular.
    We successfully completed the search and recovery effort on the 
Ehime Maru last October with the recovery of eight out of nine missing 
crewmembers. The U.S. Navy's intense efforts and our two nations' 
exceptional cooperation overcame the effects of the tragedy, and even 
strengthened the ties between our two countries in many areas.
    We continue to work to be good neighbors on our bases in Japan. 
Japan closed the industrial waste incinerator next to the U.S. Naval 
Air Facility Atsugi, ending an environmental hazard. Because of steady 
progress made under the Special Action Committee on Okinawa (SACO), a 
relocation site for Marine Corps Air Station Futenma has been selected 
in northern Okinawa, and detailed discussions have begun over the type 
and scale of the facility.
    Japan's timely, meaningful and visible contribution to the campaign 
against terrorism is a new stage in our alliance relations. This 
lynchpin relationship is vital for security and peaceful development in 
Asia.
Republic of Korea (ROK)
    Encouraging events on the Korean Peninsula in 2000 appeared to 
indicate a new era. However, progress stalled last year. Since March 
2001, the North has canceled events and refused to meet regularly with 
the ROK. At the same time, North Korea's ``military-first'' policy 
remains. Its training cycles in 2001 were at normal levels, but the 
ongoing 2002 winter training cycle has featured unusual corps-level 
activity. North Korea continues to maintain more than 60 percent of its 
forces within 100 kilometers of the Demilitarized Zone (DMZ). The North 
remains a formidable force that we must guard against and deter.
    During 2001, the United States and the ROK successfully negotiated 
several important alliance issues. Our military relationship is on a 
stronger footing every year.
    The Special Measures Agreement (SMA), once completed, will 
significantly increase contributions to the maintenance of U.S. troops 
on the Peninsula. Under the SMA, the ROK will cover 50 percent of the 
non-personnel stationing costs for U.S. forces by 2004. The Commander 
of U.S. Forces Korea (USFK) has also reached a tentative agreement with 
the ROK government on a Land Partnership Plan (LPP) that will 
consolidate U.S. force presence. The plan will reduce the number of 
major U.S. bases in Korea from 41 to 26 while enhancing training and 
combined warfighting capability. Commander USFK and the ROK Ministry of 
National Defense have agreed to review the 1990 agreement to relocate 
Yongsan Army Garrison, the home of USFK, from its location in downtown 
Seoul.
    We must continue to enhance the quality of life for our troops and 
their families stationed in Korea. The ROK provides critical Host 
Nation Funded Construction (HNFC) support. However, HNFC, coupled with 
the current level of U.S. Military Construction (MILCON) funding, is 
inadequate. Many of the facilities, including unaccompanied personnel 
housing and family housing, are of Korean War vintage. Personnel live 
in inadequate barracks, apartments, even Quonset huts and ``temporary'' 
Vietnam-era buildings that we have maintained at increasing cost as 
age, infestation, and Pacific weather have taken their toll. The fiscal 
year 2003 funding shortfall for facility construction and modernization 
across Korea is estimated at $315 million. Congressional support of 
MILCON funding for Korea in the fiscal year 2001 supplemental and 
fiscal year 2002 MILCON Appropriations bills was sorely needed and very 
appreciated. We seek your continued support for MILCON and sustainment, 
restoration and maintenance funding as provided in the President's 
fiscal year 2003 budget.
    The ROK increasingly contributes to regional security by deploying 
over 400 troops to the peacekeeping mission in East Timor, in addition 
to its other peacekeeping commitments in Western Sahara, the Republic 
of Georgia, Cyprus and the India-Pakistan border region. ROK forces 
participate in exercises such as RIMPAC (a major, multilateral naval 
exercise), PACIFIC REACH (a submarine rescue exercise also involving 
naval forces from Japan, Singapore and the United States), and COPE 
THUNDER (a multilateral air exercise in Alaska). Most recently, the ROK 
and USCINCPAC co-hosted a Multilateral Planning Augmentation Team 
(MPAT) workshop in Korea. Hosting an exercise with over 20 non-U.S. 
participants, including Japan, was a significant first for the ROK.
    Following the 11 September tragedy, the ROK aggressively supported 
our efforts to combat terrorism. They have dispatched forces to support 
Operation ENDURING FREEDOM, currently deploying four C-130 aircraft, a 
naval tank landing ship (LST) and a Mobile Army Surgical Hospital 
(MASH) unit. The ROK has also sent liaison officers to the headquarters 
of USCINCPAC and Commander in Chief, U.S. Central Command to coordinate 
ROK government support for the Afghan campaign and continuing war. The 
ROK has worked closely with USFK to fully ensure the highest levels of 
protection of U.S. forces on the Peninsula. This is in addition to the 
$45 million pledged for the reconstruction of Afghanistan.
    By joining the coalition to combat global terrorism and 
participating in peacekeeping missions and USPACOM's regional exercises 
and cooperative initiatives, the ROK plays a very positive role in the 
region. Although there has been little or no substantive progress 
toward normalization and reunification of the Peninsula, the United 
States and the ROK have strengthened our alliance, and the ROK has 
continued its contribution to regional security.
Philippines
    Our relationship with the Republic of the Philippines (RP), a long-
time U.S. ally, had major developments last year. The RP continued to 
be a strong partner in regional security initiatives--hosting various 
conferences, the annual bilateral BALIKATAN exercise linked to the 
regional TEAM CHALLENGE exercise, and numerous Joint Combined Exchanges 
for Training (JCETs).
    The Armed Forces of the Philippines (AFP) are challenged by 
budgetary constraints, logistical problems and a lack of adequately 
trained personnel. These factors hamper the AFP's ability to deal with 
internal insurgent groups, like the Abu Sayyaf Group (ASG) that also 
has ties to al-Qaida and poses a threat to Americans.
    President Arroyo has championed Philippine and regional support for 
the international counter-terrorism campaign. During her November 2001 
visit to the United States to commemorate the 50th Anniversary of the 
U.S.-RP Mutual Defense Treaty, she and President Bush agreed that the 
11 September terrorist attacks on the United States, and the terrorist 
activities of the ASG (which now holds Filipino and American hostages 
in the Southern Philippines), underscore the urgency of ensuring that 
the two countries maintain a robust defense partnership into the 21st 
century. The two leaders agreed to strengthen the military alliance on 
a sustained basis, through increased training, exercises, and other 
joint activities. Finally, they declared that the American and Filipino 
people stand together in the global campaign against terrorism.
    USPACOM has deployed a Joint Task Force (JTF) to the Southern 
Philippines and has organized a substantial program to improve the 
maintenance of AFP equipment. The JTF package includes: a training/
advisory team of Special Operations ground, naval and air personnel to 
train the AFP from their Southern Command Headquarters potentially down 
through company level. Training will focus on effective counter-
terrorism campaign planning, intelligence/operations fusion, 
psychological operations (PSYOP), civil-military operations (CMO) and 
field tactics. Additionally, civil affairs (CA), maintenance, medical, 
and other support personnel round out the Special Forces team.
    The JTF initial deployment of advisors was approved during 
implementation planning in January 2002. The recently concluded Terms 
of Reference (TOR) provided both governments with the necessary 
framework for executing our deployment to the Philippines.
    The war against the ASG will not be won by military operations 
alone. Improvements in law enforcement, intelligence, economics, 
business, information, media, academia, community leadership and 
religion will have enduring and important roles in the battle. A solid, 
sustainable socio-economic program by the Government of the Philippines 
in the affected areas is also essential. USPACOM is working on a civil 
affairs assessment to support the JTF operation. Our training, 
assistance, and maintenance package will improve the AFP's CT 
capabilities. Continued U.S. support to the Philippines through the FMF 
program is critical to the success of the AFP's campaign against 
terror.
Thailand
    Thailand is one of the nations in Asia most committed to building 
regional approaches to the future challenges of counter-terrorism (CT), 
counter-drug (CD) interdiction, peacekeeping operations (PKO), 
humanitarian assistance (HA), and other transnational concerns. The 
TEAM CHALLENGE multilateral training event to improve multinational 
capability/interoperability is held in Thailand.
    Thailand has taken a leading role in Southeast Asia in support of 
peacekeeping operations (PKO) by maintaining battalion strength forces 
in East Timor and again supplying the U.N. military commander there. 
Thailand has also sponsored several multilateral PKO seminars. We have 
supported humanitarian demining in Thailand and are transferring that 
program to Thailand in fiscal year 2002. USPACOM continues to respond 
to Thailand's request for U.S. assistance to the Royal Thai Army in 
combating drug traffic across the Burma-Thai border. Joint Interagency 
Task Force West (JIATF-W) is the standing task force for all CD issues 
in the theater and has the lead in training, equipment, and 
organizational coordination initiatives to assist the Thais with their 
CD mission. Full funding of fiscal year 2002/03 Foreign Military 
Financing (FMF) for Thailand is critical to our efforts to help 
Thailand sustain its CD and PKO over the next 2 years.
    Since 11 September, Thailand has coordinated fully with the United 
States in combating terrorism by supplying access to Thai military 
facilities, granting overflight permission, making formal public 
statements of support, and cooperating in information sharing and in 
investigation of terrorists using Thailand for a transit point and for 
other support. During a December 2001 trip to Washington, D.C., Prime 
Minister Thaksin offered the U.S. Deputy Secretary of Defense Thai 
security contributions to multilateral presence in Afghanistan.
    Our effective military-to-military cooperation with Thailand meets 
the security concerns of both our countries. Our attention to Thai 
political and military priorities supports our ability to call for 
access to military facilities. Thailand will continue to be our key 
ally in Southeast Asia.
Singapore
    The March 2001 completion of the deep-draft pier at Changi Naval 
Base, constructed entirely at Singapore's expense, will support 
continued U.S. presence in the region for many years to come. U.S.S. 
Kitty Hawk was the first aircraft carrier to berth pierside at Changi. 
Though not a formal treaty ally, Singapore is a solid security partner 
in the Asia-Pacific region, a vocal proponent for U.S. access, and 
strong supporter of U.S. counter-terrorist efforts. Additionally, 
Singapore supports and hosts many significant multilateral activities. 
Last year, it hosted Exercise PACIFIC REACH, participated in Exercise 
COBRA GOLD and numerous anti-piracy regional conferences, and hosted a 
Western Pacific Naval Symposium (WPNS) regional Mine Counter-Mine 
exercise.
    Singapore seeks greater interoperability with the U.S. armed 
forces. It views high technology and advanced hardware as a deterrent 
and is increasing its cooperation with the United States in several 
projects. Singapore participated with Extending the Littoral 
Battlespace (ELB) Advanced Concept Technology Demonstration (ACTD) and 
is active in other developments such as the Joint Mission Force (JMF) 
and Asia-Pacific Area Network (APAN).
    Singapore has worked against terrorist groups in the country who 
were targeting U.S. interests. Immediately following the 11 September 
attacks, Singapore was unwavering in its support to Operation ENDURING 
FREEDOM, allowing our aircraft to use its airfields and increasing 
protection to vital shipping in the Strait of Malacca.
    Singapore's arrest of 13 al-Qaida-linked terrorists in December led 
to additional arrests in Malaysia and the Philippines in January. 
Information sharing between these countries provided unprecedented 
insights into the al-Qaida network in the Asia-Pacific region.
    Singapore has rapidly matured into a solid regional partner in a 
strategic location.
India
     U.S. military relations with India have greatly expanded over the 
past year. India offered rapid and valuable assistance to the United 
States in conducting military operations in Afghanistan. USPACOM 
officers have met with their Indian counterparts and agreed on programs 
and exercises for the next 6-18 months. The primary areas of 
cooperation focus on peacekeeping, counter-terrorism, special 
operations training and naval activities.
    We are closely following India's current confrontation with 
Pakistan. Throughout our interaction with our Indian counterparts, we 
continually stress the importance of a peaceful negotiated long-term 
solution to the Kashmir issue.
    India and the United States have many common interests and our 
growing military cooperation will support this increasingly important 
security relationship.
Indonesia
    Indonesia continues to go through a complete transition toward a 
modern democracy and a market economy. A key factor influencing 
Indonesia's political transformation and the prospects for its 
stability and unity are the Armed Forces of Indonesia, or TNI.
    Military reform made some progress last year, but more remains to 
be done, especially in the areas of accountability and professional 
conduct. Separatist and sectarian violence in Aceh, the Moluccas, 
Sulawesi, and Irian Jaya, and inadequate TNI resources and capabilities 
have slowed the momentum of reform. TNI's future course is central to 
Indonesia's development and important to U.S. interests in combating 
terrorism, maintaining freedom of navigation on important trade lanes, 
and supporting regional security.
    The Indonesian government has condemned terrorism and approved 
overflights of U.S. aircraft supporting the war on terrorism. It has 
improved security for our citizens and the U.S. embassy in Jakarta. 
However, Indonesia's very geography makes it vulnerable to terrorist 
penetration. With many challenges on its plate, and diminishing 
resources, Indonesia's security apparatus does not have full control of 
its borders. Moreover, Indonesia has not aggressively investigated 
domestic elements that are sympathetic to the aims of al-Qaida. We need 
to strengthen cooperation with Indonesia on terrorism. Current 
restrictions on our interaction with the TNI limit our effectiveness. 
However, the newly established Regional Defense Counter-Terrorism 
Fellowship Program may offer us a valuable tool to provide TNI mid-
grade officers non-lethal training focused on counter-terrorism and 
combating transnational threats. We look forward to exploring this 
possibility with the Congress.
    USPACOM activities with TNI include inviting some officers to 
multilateral conferences, subject matter information exchanges, senior 
officer visits, and the annual naval Cooperation Afloat Readiness and 
Training (CARAT) exercise focusing on humanitarian assistance and anti-
piracy. CARAT 2002 will now include a counter-terrorism element.
    A responsible, developing Indonesia is key to the security and 
development of the Southeast Asia region; it is in our interest to help 
ensure the security of this important country.
East Timor
    East Timor is preparing for independence in May of this year. U.N. 
Transitional Administration in East Timor (UNTAET) support has been 
successful in assisting and guiding East Timor toward independence. 
USPACOM forces in U.S. Support Group East Timor (USGET) played a vital 
role in supporting this monumental international effort. USGET has 
provided a significant U.S. presence, vital civic actions, humanitarian 
assistance, and regular ship visits. Today, East Timor is generally 
secure from the militias, and ready to face the challenges of a 
democracy.
    After East Timor's independence, USPACOM will transition from civic 
action orientation in East Timor to a more traditional military 
cooperation program. This program will support an international effort, 
led by Australia, to further develop the East Timor Defense Force into 
a viable self-defense force.
China
    Many important political, economic, and military developments 
occurred in the People's Republic of China (PRC) last year, and Chinese 
actions affected U.S. military relations with the People's Liberation 
Army (PLA).
    Last year's military exercises in the PRC showed a measurable 
increase in quality, as the PLA continued to modernize its forces, with 
an emphasis on integrating ground, air and naval forces into a viable 
joint capability, and on creating a more professional officer and 
noncommissioned officer cadre. In addition to basic maritime combat 
skills, the 2001 exercises demonstrated efforts to conduct joint 
amphibious operations combined with missile and air strikes against key 
targets, such as airfields, naval ports and command centers.
    China continued to build and exercise its force of short-range 
ballistic missiles ranging Taiwan. It still seeks to develop a range of 
military options to influence and intimidate Taiwan, and has not 
abandoned the option of using force to resolve Taiwan's status.
    Across the Strait, Taiwan's armed forces continue to restructure 
and modernize. They are reorganizing and modernizing command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR). The U.S. government last year approved the 
sale of naval, ground and air equipment to maintain Taiwan's sufficient 
defense in the near term. Taiwan still needs to focus on developing and 
modernizing C\4\ISR, integrated air and sea defense, and the ability to 
integrate its armed forces to conduct effective joint operations.
    The PLA is still years away from the capability to take and hold 
Taiwan. Continued improvements in Taiwan's capabilities and development 
of USPACOM capabilities will be necessary to maintain sufficient 
defense.
    The April 2001 EP-3 crisis was eventually resolved--the crew and 
airplane returned. However, the aggressive behavior of the Chinese 
pilot who caused the collision and the detention of the crew for 11 
days damaged China's relations with the United States.
    Military-to-military relations are resuming slowly, and in 
accordance with the National Defense Authorization Act. It is in the 
interests of the United States to interact with the PLA to address 
common interests, such as combating terrorism, peacekeeping operations, 
search and rescue, counterdrug, counterpiracy, and humanitarian 
assistance. These interactions should be reciprocal and transparent and 
serve to reduce misunderstandings and the risk of miscalculations on 
both sides.
                   pow-mia efforts in southeast asia
    Joint Task Force-Full Accounting (JTF-FA) continues progress on the 
fullest possible accounting of Americans unaccounted-for as a result of 
the war in Southeast Asia.
    The risks of this noble mission were sadly underscored by the 
helicopter crash on 7 April 2001. Seven American service members and 
nine Vietnamese tragically died in Quang Binh Province, Vietnam, while 
conducting advance work for the 65th Joint Field Activity (JFA). We may 
never know the exact details of the accident, but a report by the U.S. 
investigator indicated that deteriorating weather conditions, poor 
visibility, and pilot error were factors. This tragic incident was a 
deep loss for USPACOM, the task force, and the American and Vietnamese 
people.
    During fiscal year 2001, JTF-FA conducted nine JFAs--three in 
Vietnam, five in Laos, and one in Cambodia where 211 cases were 
investigated and 37 sites excavated. One JFA in Vietnam was canceled 
due to the tragic helicopter crash. JTF-FA continues to maintain its 
pace of operations in fiscal year 2002, with 10 JFAs scheduled--4 in 
Vietnam, 5 in Laos, and 1 in Cambodia.
    Last year, 44 sets of remains were identified and returned to their 
loved ones. JTF-FA recovered and repatriated 27 remains still to be 
identified, but believed to be Americans unaccounted-for (16 from 
Vietnam, 10 from Laos, and 1 from Cambodia).
    We remain committed to obtaining the fullest possible accounting of 
Americans still missing in Southeast Asia and to the return of all 
recoverable remains. We seek continual support for funding of this 
mission.
                      theater security cooperation
Theater Security Cooperation Overview
    Ready forces are the foundation for USPACOM's cooperation with the 
Asia-Pacific region. They reassure our friends and partners, and 
dissuade our potential enemies. During 2001, we maintained a strong 
program of Theater Security Cooperation (TSC) designed to maintain 
coalition warfighting skills for deterrence, and build regional 
coalition capabilities to carry out common missions, from peacekeeping 
through combating terrorism.
    The three primary goals of TSC--influence, access, and competent 
coalition partners--led to an active program that proved its worth 
after 11 September. All countries in the Asia-Pacific region declared 
support for the global war on terrorism, and contributed in many ways.
    Seminars, simulations and multilateral exercises are inexpensive 
and powerful ways to develop the capabilities to work effectively--as 
coalitions in complex contingencies (such as East Timor); as partners 
in countering terrorism, illegal drug trafficking, and piracy; in 
managing the consequences of chemical, biological or nuclear attacks, 
natural disasters and accidents; in evacuating citizens caught in the 
path of violence; in search and rescue of mariners and airmen in 
distress; and in providing humanitarian assistance. TSC develops a 
cadre of competent coalition partners able to contribute when called 
upon.
    Such a call came 11 September. Under the banner of Operation 
ENDURING FREEDOM, many of our partners in enhanced regional cooperation 
stepped forward to make significant contributions to the emerging OEF 
coalition. We have also focused on building long-term, strategic 
relationships necessary to plan and execute the protracted theater 
campaigns to eradicate terrorism. Many of our efforts with key allies 
and friends, such as Australia, Japan, Korea, the Philippines, Thailand 
and Singapore, are expanding on strong foundations nurtured by TSC to 
improve our counter-terrorism capabilities. With other strategic 
nations in our theater, such as India, the events of 11 September are 
the catalyst for accelerating more meaningful military-to-military 
contact and cooperation. Finally, many nations, such as Vietnam, 
Cambodia, Laos and Burma, have offered varying levels of support and 
cooperation to the global campaign against terrorism. Their proposed 
contributions and offers, although perhaps not strategically 
significant, forecast meaningful regional cooperation on a threat that 
affects all Asia-Pacific nations.
    We will continue to cultivate and maintain the necessary 
operational access and coalition cooperation (diplomatic/financial/
military) to plan and execute current and future operations. For all 
these purposes, USPACOM should maintain a baseline of multilateral 
conferences and International Military Education and Training (IMET) 
for every country.
Coalition Exercises
    TEAM CHALLENGE 2002 links the multilateral COBRA GOLD exercise in 
Thailand with the bilateral BALIKATAN in the Philippines to address 
bilateral and multilateral training objectives, and to improve the 
readiness of regional armed forces to contribute to multilateral 
operations. Singapore will participate again this year alongside Thai 
and U.S. forces in COBRA GOLD. Observer nations (with an eye toward 
possible participation in future years) will include Japan, 
Philippines, Malaysia, Indonesia, France, ROK, Mongolia, Russia, China, 
India, Cambodia, Tonga and Sri Lanka; Vietnam has been invited. In TEAM 
CHALLENGE, we will exercise elements from the full spectrum of missions 
that our combined forces may be called upon to do together, from 
complex contingencies to humanitarian assistance. TEAM CHALLENGE 
continues to be our largest multilateral exercise in theater, while 
serving as our premier Combined Joint Task Force training exercise.
International Military Education and Training (IMET)
    IMET is the cornerstone of our Theater Security Cooperation 
Program. It provides education opportunities for personnel from foreign 
armed forces to study U.S. military doctrine and to observe U.S. 
commitment to the rule of law, human rights, and democratic values. It 
is the best means for promoting professionalism within foreign armed 
forces, and exposing foreign armed forces to the principle of a 
military responsive to civilian control. IMET is an effective tool for 
assisting armed forces to develop in ways that meet their own and U.S. 
objectives. Indonesia is a case in point, where officers from the 
Indonesian armed forces have not attended professional U.S. military 
education courses since 1992, with an attendant loss of U.S. influence 
on an entire generation of Indonesian company/field grade officers.
Regional Defense Counter-Terrorism Fellowship Program
    The Regional Defense Counter-Terrorism Fellowship Program 
complements the IMET program. DOD funding will be used to send foreign 
military officers to U.S. military institutions and selected regional 
centers for non-lethal education. This program will provide the 
regional CINCs with additional flexibility in executing our security 
cooperation strategies, and it will have an immediate and positive 
impact in encouraging reform, professionalism, and regional cooperation 
in addressing counter-terrorism and other transnational threats.
Foreign Military Financing (FMF)
    FMF for acquiring U.S. military articles, services and training 
enables key friends and allies to improve their defense capabilities 
and improve their potential contributions as a coalition partner. In 
response to our original fiscal year 2002 FMF request, three USPACOM 
countries were granted FMF funds: Mongolia ($2 million), the 
Philippines ($19 million), and East Timor ($1 million), which gains its 
independence 20 May of this year.
    To prosecute the global war on terrorism, it is in the U.S. 
interest to provide equipment to select countries facing threats. The 
administration is reviewing potential threats and options.
Philippines FMF Maintenance Program
    The Philippines FMF Maintenance Program is the foundation for 
effective security assistance to the Armed Forces of the Philippines 
(AFP) in their campaign against terror. We are in the first year of a 
5-year, $68 million FMF plan to sustain critical AFP military 
capability while promoting clear and positive actions to correct 
budgetary and logistics deficiencies. We have developed courses of 
action to improve AFP readiness rates for specific systems such as C-
130 aircraft, UH-1 helicopters, 2\1/2\-ton trucks, and 78-foot Fast 
Patrol Craft. We have also developed a statement of work to implement 
contractor management assistance and ways to track improvements in 
readiness rates. Full funding over the 5-year program will enable the 
AFP to sustain higher readiness levels for key weapons systems. This 
funding is essential for the AFP to achieve a self-sustaining 
capability.
    As the efforts in the Philippines evolve, possible opportunities to 
maximize effectiveness of counter terrorism operations may require 
additional resources. Fiscal year 2003 FMF funding for the Republic of 
the Philippines Maintenance Program remains key to achieving one of our 
long-term goals of improving AFP readiness.
Enhanced International Peacekeeping Capabilities (EIPC)
    EIPC programs promote standards for peacekeeping doctrine, 
training, and education at the institutional level. In fiscal year 
2001, five USPACOM countries (Malaysia, Mongolia, Nepal, Philippines 
and Thailand) received a total of $2.227 million to achieve this goal. 
In fiscal year 2002, we hope to add Fiji, Madagascar, Tonga and India 
to this list. While EIPC programs are not as visible as IMET or FMF 
grants, EIPC plays a key role in developing host country self-
sufficiency to train its forces to be effective players in worldwide 
peacekeeping efforts.
Nonproliferation, Antiterrorism, Demining, and Related Programs (NADR)
    NADR funding supports U.S. efforts to reduce threats posed by 
international terrorists, landmines, and stockpiles of excess weapons, 
as well as by nuclear, chemical, and biological weapons and their 
associated technologies. We have received limited funds in the past, 
primarily for demining activities in Cambodia, Laos, Thailand, India 
and Vietnam. Our war against terrorism could benefit by any expansion 
of these programs. We will work closely with U.S. Country Teams to 
ensure we use these limited funds wisely.
Overseas Humanitarian Disaster and Civic Aid (OHDACA)
    OHDACA appropriation provides the critical ability to respond to 
humanitarian needs in the Asia-Pacific region and is the primary source 
of DOD financing for foreign disaster assistance, demining, excess 
property donations and other humanitarian projects. While other federal 
agencies also have responsibilities to respond to man-made and natural 
disasters, armed forces are frequently called upon first. Additionally, 
our annual assistance programs provide important access to some 
countries where other means of security cooperation are inappropriate. 
These non-threatening programs demonstrate the peacetime capabilities 
of DOD to our Pacific neighbors without impacting readiness. Approved 
fiscal year 2002/03 Humanitarian Assistance requirements for 
construction projects and property donations total approximately $5.1 
million.
East Timor Defense Force (ETDF)-Logistics System/East Timor Engineer 
        Plan
    The U.S. armed forces continue to conduct operations in East Timor 
by providing liaison officers, engineers and humanitarian assistance 
during ship visits. Fiscal year 2002 engineering priorities include 
water plant, electrical system, and health clinic projects. The State 
Department programmed $4.8 million in FMF funds in fiscal year 2001-03 
to assist in developing the East Timor Defense Forces (ETDF) logistics 
support system and to conduct training to develop the skills necessary 
for self-sufficiency. We will need to look at avenues to provide the 
ETDF the support they need to provide for their own security. There 
should be no haven for terrorism in the Asia-Pacific region, in 
countries with histories old or new.
Asia-Pacific Center for Security Studies (APCSS)
    The APCSS regional study, conference, and research center continues 
to do great work. Graduates from its 3-month executive course total 764 
from 41 countries, including Pakistan. I meet many of the outstanding 
graduates when I travel, and all are convinced that the regional 
approach works.
Asia-Pacific Regional Initiative (APRI)
    The APRI program increases USPACOM access, regional readiness and 
U.S. influence in the Asia-Pacific region. APRI funding supports a wide 
range of exercises, programs, and training symposiums such as Exercise 
TEAM CHALLENGE, the PACIFIC REACH multi-national submarine rescue 
exercise, the annual multilateral Chiefs of Defense conference, and 
search and rescue and humanitarian assistance/disaster relief 
exercises.
            Asia-Pacific Area Network (APAN)
    Funded by the APRI program, APAN provides information exchange 
throughout the region that directly supports Theater Security 
Cooperation. It functions as an interactive Web-based network that is 
attracting ever-widening attention and participation. APAN's membership 
has grown from about 300 users from 17 countries in June 2000 to more 
than 4,000 self-registered users (by 1 January 2002) from every country 
in the Pacific region except Burma and North Korea. APAN has also 
attracted users from over 20 other countries outside the region. The 
Web site supports regional exercises and conferences, and provides 
information resources to functional areas such as peacekeeping 
operations, disaster management and counter-terrorism. More 
importantly, it has been a catalyst to the creation of multinational 
information-based relationships and collaboration. Since APAN's 
operational capabilities and information are entirely unclassified, 
they are available to government agencies and non-governmental 
organizations (NGOs) that are important as participants in complex 
humanitarian emergencies and as partners in any combined military 
effort. After 11 September, APAN began a commercially secured Web site 
for Hawaii's Joint Rear Area Coordinator (JRAC) effort, a multi-agency 
effort comprising 17 federal state and local agencies in Hawaii 
responsible for critical infrastructure. APAN is working with the U.S. 
Coast Guard to develop a similar commercially secured operational 
network capability for multinational collaboration in the Northwest 
Pacific and with the Department of State for similar collaborative 
sites to support ASEAN Regional Forum Confidence-Building Measures in 
Counter-Terrorism and possibly Maritime Security. Part of the 
international experience of 11 September has been overcoming resistance 
to new operating methods and information-based relationships. APAN has 
encouraged regional countries and United Nations organizations and NGOs 
to use and contribute to building experience in network centric 
operations that will pay off in future multinational force operations.
            Multinational Planning Augmentation Team (MPAT) Program
    The MPAT Program, also funded through APRI, brings together expert 
military planners from nations with Asia-Pacific interests that can 
rapidly augment a multinational force headquarters. Using standardized 
skills, they would plan and execute coalition operations in response to 
small-scale contingencies in the region. Through a series of workshops 
and planning exercises, MPAT members have developed a knowledge base of 
the various national crisis-action-planning procedures in the Asia-
Pacific region and strong working relationships with each other. MPAT 
members have also begun developing common crisis-action planning 
procedures that any lead nation could use during a crisis.
    We have successfully completed three MPAT workshops each involving 
over 25 countries, co-hosted by the Philippines, Thailand, and Korea 
respectively. We have also completed six concept and standard operating 
procedures (SOP) workshops. The strength of the MPAT program lies in 
its ability to foster the development of a consensus on multinational 
responses to crises in a region with only a strong bilateral tradition.
The Center of Excellence in Disaster Management and Humanitarian 
        Assistance (COE)
    COE plays an important role in our pursuit of key strategic 
objectives in USPACOM. COE engages countries in the Asia-Pacific 
region, builds burden-sharing relationships among our friends and 
allies, and prepares U.S. forces to perform effectively in complex 
contingencies. COE's mission in disaster management, humanitarian 
assistance, and peace operations offers a low profile tool to engage 
civilian and military communities throughout the theater that might 
otherwise be hesitant to work with us. COE's support of our peace 
operations capacity building efforts in the Asia-Pacific region have 
helped improve capabilities in the Philippines, Thailand, Bangladesh, 
Nepal, and Malaysia. Finally, by promoting broader collaboration among 
non-traditional partners, COE contributes to the creation of an 
environment less hospitable to terrorism.
                        readiness and resources
Personnel
    The war on terrorism along with ongoing commitments throughout the 
Asia-Pacific region place heavy pressures on our troops and their 
families. It is especially important today, that our young men and 
women in uniform feel the support of our country. The quality of life 
(QoL) initiatives included in the Fiscal Year 2002 National Defense 
Authorization Act are welcome and let our people know their elected 
representatives value their hard work and sacrifices.
    Thank you for supporting the Administration's request for the 
largest pay raise in two decades. Competitive pay is essential to 
attract and retain the highly skilled personnel critical to our 
national defense.
    There are areas where compensation has failed to keep up with the 
times. For example, most American families today own two cars for 
parents' jobs, school, and children's extracurricular activities. This 
is a necessity, not a luxury. At present, our military families are 
only allowed to transport one vehicle when transferred to and from 
overseas duty stations in the United States. Developing programs to 
meet the needs of today's military families will go a long way toward 
improving retention.
    Another much-needed improvement is reducing Permanent Change of 
Station (PCS) out of pocket expenses. We calculate the average military 
family pays $1,700 above reimbursements when moving to Hawaii. 
Legislation like that in the Fiscal Year 2002 Defense Authorization 
Act, to increase partial reimbursement of mandatory pet quarantine fees 
incurred by members transferred to various overseas locations within 
and outside the United States, helps reduce this financial burden. The 
removal of entitlement limits that previously excluded junior personnel 
from receiving proper reimbursement for expenses incurred during their 
first PCS move is also a standout. Even a seemingly small gesture, like 
helping our volunteer Reserve or Guard members deal with excess accrued 
leave as they move from hot spot to hot spot, sends a message that we 
care.
    In past conflicts, Reserve Component (RC) personnel have mobilized 
to serve in and around combat zones. For the war on terrorism, we have 
mobilized thousands of reservists and guardsmen to protect our military 
bases and civilian facilities like airports. The President has clearly 
stated that the war on terrorism will continue for years. RC support 
will be a vital part of the war effort. In USPACOM, our reservists have 
done a magnificent job. The flexibility and support of their employers 
has been a key element of this successful mobilization.
    We need to reexamine RC polices and programs to sustain the war on 
terrorism over the long term. Cold War-era regulations and public laws 
still sometimes prevent RCs from providing the responsive and flexible 
capability they are so eager to deliver. I applaud the efforts of the 
Office of the Secretary of Defense (OSD) and Joint Staff to push for 
improvements to law, policy, and regulations. I support ways not only 
to increase funding but also to modernize the rules that govern RC 
support. To do this, we need more full-time support to perform tasks 
like managing manning documents, pre-screening medical records before 
recall, and providing support at the locations where the RC personnel 
are frequently mobilized.
    While we are fortunate to have many eager and talented volunteers 
willing to make sacrifices to serve their country in times of crisis, I 
am concerned about the long-term impact of reliance on recalled reserve 
augmentation forces. Given the nature of our protracted war on 
terrorism, we need to take a hard look at active duty force levels 
required in the next 5-10 years to combat terrorism, because now is the 
time to make recruitment and force authorization adjustments.
State of Housing, Family Support
    Military family housing remains one of our top QOL priorities. We 
are working to replace or renovate substandard military family housing 
by 2007. Pacific Fleet (PACFLT), Marine Forces Pacific (MARFORPAC), 
Pacific Air Forces (PACAF), and U.S. Army Pacific (USARPAC) will meet 
this goal with their current master plans and programs. We must 
continue to restore and increase funding to ensure that our military 
family housing is safe, modern, and secure. Congressional efforts last 
year resulted in a welcome and much needed increase in attention to 
overseas MILCON in USPACOM. I applaud your efforts to fix the grossly 
inadequate housing in Korea and other deficiencies throughout the AOR. 
There is still so much to do.
    People are our most important resource. Recognition, adequate 
compensation, and housing are the foundation of a decent quality of 
life for our people and their families.
Operations and Maintenance (O&M) Funding
    The second important component of readiness is sufficient 
operations and maintenance funding for training and maintaining 
equipment.
    Last year I testified that with regard to our funding for 
Operations and Maintenance (O&M) ``news is not positive'' and, 
``accordingly the readiness of our component commands is not expected 
to reflect any significant increase this fiscal year.'' I am happy to 
report this year, due to supplemental funding, our readiness picture is 
more optimistic.
    Funding for training and maintenance across Service components has 
been adequate to keep units trained and their equipment in good repair. 
This readiness was proved in combat as USPACOM carrier battlegroups 
(CVBGs), amphibious ready groups (ARGs), and marine expeditionary units 
(MEUs) deployed on short notice to Afghanistan and were effective in 
combat immediately.
    Let me highlight my current readiness concerns.
            Precision Guided Munitions (PGMs)
    Ongoing support of Operation ENDURING FREEDOM (OEF) has 
significantly reduced the already limited worldwide stocks of precision 
munitions across all services, especially the Joint Direct Attack 
Munition (JDAM). The President's fiscal year 2003 budget request 
contains aggressive programs to restore inventories to adequate levels. 
Sustained funding to restore/increase PGMs stockage levels to support 
the spectrum of military operations--counter-terrorism (CT) operations, 
small-scale contingencies (SSCs), major theater wars (MTWs), training/
testing expenditures, theater positioning and combat-sustainment 
requirements--must remain a priority.
            Intelligence, Surveillance, and Reconnaissance (ISR) 
                    Aircraft
    Our AOR requires more ISR aircraft coverage to meet operational 
demand. While I cannot provide exact numbers in this forum, our 
collection rates of required intelligence information is dangerously 
low. Recent funding of ISR aircraft as part of the counter-terrorism 
(CT) supplemental will help, but this projected increase must be 
realized in increased surveillance units in this theater. New aircraft 
must also be developed to replace aging ISR assets. The projected 
retirement of aircraft over the out years puts at risk Service 
commitments to maintain a minimum number of operational ISR aircraft.
            Aircraft Readiness
    Mission Capable (MC) rates for Pacific Fleet (PACFLT)/Marine Forces 
Pacific (MARFORPAC) aircraft and cannibalization of Pacific Air Forces 
(PACAF) aircraft continue to be major readiness concerns in USPACOM. 
Availability of repair parts is a significant contributor to aircraft 
readiness shortfalls. Although funding for repair parts for Navy, 
Marine Corps, and Air Force aircraft has improved in the past two 
years, shortages still exist, causing cannibalizations on PACAF 
aircraft and crossdecking/temporary equipment loans in PACFLT. Of PACAF 
aircraft tracked from January to December 2001, 80 percent did not meet 
the aircraft standard for cannibalization rates.
Infrastructure, Logistics Inventories, and Related Support
    The final component of readiness is infrastructure, logistics 
inventories, and related support. This component still requires 
attention.
            Facilities: Sustainment, Restoration and Modernization 
                    (SRM)
    The combined effects of aging facilities and years of under funding 
have produced an enormous backlog of restoration and replacement 
projects. The current recapitalization backlog was caused by a 
combination of factors. Funding intended for facilities sustainment has 
often been diverted. When bases closed in the Philippines, Guam, and 
Hawaii, SRM funds were not redistributed for remaining facilities but 
were reduced as part of the ``peace dividend.'' Rising utility costs 
and higher costs to accomplish base-operating support by contract 
further reduced funds available for SRM. As a result of inadequate 
funding, bases, camps, posts and stations across the Asia-Pacific 
region are shabby and deteriorating to a point we can no longer ignore. 
Our people deserve much better than this; they deserve to live and work 
in a quality environment.
    At current Future Years Defense Plan (FYDP) funding levels, the 
$5.3 billion USPACOM recapitalization backlog will nearly double over 
the FYDP. USPACOM requires an additional $8.4 billion over the FYDP to 
eliminate the backlog and prevent future backlog growth through proper 
sustainment.
    SRM funding shortfalls not only affect quality of life, but also 
impact readiness, operation plan (OPLAN) execution, retention, and 
force protection. Unfunded backlog projects affect OPLAN execution in 
Korea, Guam and Wake Island. Without additional funding, 
recapitalization backlogs will continue to grow if we do not realign or 
close any installations or facilities, and will further deteriorate, 
jeopardizing critical functions throughout USPACOM's Area of 
Responsibility (AOR).
New Pacific Command Headquarters
    Construction on the Nimitz-MacArthur Pacific Command Center at Camp 
Smith is underway and going vertical. Completion is scheduled for 
December 2003. We appreciate the restoration of $3 million included in 
the fiscal year 2002 MILCON Appropriations Act to fund critical design 
elements, including antiterrorism force protection (ATFP) and 
information security requirements. Unfortunately, this funding was 
reduced by over $400,000 due to an across-the-board reduction of all 
fiscal year 2002 MILCON funding, creating an unexpected shortfall just 
as critical ATFP and information technology security requirements are 
being addressed.
Pacific Security Analysis Complex (PSAC) MILCON04
    USPACOM needs a single shared intelligence complex on Oahu, Hawaii, 
that optimizes the missions and operations of both Kunia Regional 
Security Operations Center (KRSOC) and the Joint Intelligence Center 
Pacific (JICPAC). The current KRSOC is obsolete. The facility was built 
in 1945, and the last major renovation occurred in 1979. Current 
estimates for necessary renovations to ensure a 30-year continued use 
exceed $185 million, with annual operating costs of approximately $8 
million. Construction costs for a new KRSOC facility, incorporating 
Naval Security Group Activity (NSGA) Pearl Harbor and NCPAC, are 
currently estimated at $220 million, with annual operating costs of $6 
million. Additional savings in renovation costs to NSGA Pearl Harbor 
and NCPAC are estimated at $9 million. Thus, it would be less costly in 
the long term to build the new facility.
    The JICPAC theater intelligence production facility has force 
protection vulnerabilities due to its location on a main civilian 
thoroughfare. Co-locating with KRSOC would lead to savings of roughly 
$30 million over 4 years in JICPAC operating costs, and enhance fusion 
of all-source intelligence. The PSAC presents an unprecedented 
opportunity for immediate in-depth collaboration between the premier 
signals intelligence and production centers.
USPACOM Simulation Center MILCON04
    Increasing exercise activity, training complexities, and command, 
control, communications, computers, intelligence (C\4\I) modernization 
have outgrown USPACOM's exercise simulation infrastructure and support 
capabilities. This deficiency significantly reduces the ability to 
train USCINCPAC and Joint Task Force (JTF) commanders in crisis action 
readiness procedures; degrades the ability to improve combined 
interoperability with friends in the region; and contributes to 
increased operating tempo (OPTEMPO), training time and associated costs 
for USPACOM forces before responding to contingencies. The current 
facility does not support future technologies or meet force-protection 
requirements. The planned state-of-the-art simulation center will link 
with simulation centers throughout the Asia-Pacific region to train 
joint integrated forces, rehearse mission requirements, provide 
commanders with quick-reaction combat analyses, and exploit information 
from open sources. It will transform USPACOM through the use of 
advanced simulations, collaborative tools, and C\4\I systems in joint 
experiments.
Wake Island Airfield Funding
    Wake Island remains critical for support of strategic deployment of 
forces for major theater wars (MTWs). The funding in the Air Force 
program is the first year of a multi-year program that must be 
maintained to ensure availability of this critical asset to meet 
wartime contingency requirements.
Mobility Infrastructure and Strategic Lift (C-17/C-5) Reliability 
        Enhancement and Re-engine Program
    USPACOM depends on continued funding of the programmed C-17 
aircraft buy and the C-5 aircraft Reliability Enhancement and Re-engine 
Program and Avionics Modernization Program. Equally important are our 
efforts to exploit advanced sealift technology to reduce our dependency 
on premium airlift. Over the past year, III Marine Expeditionary Force 
(MEF) has been testing and evaluating off-island deployments using a 
leased High Speed Vessel (HSV). Initial analysis of the HSV suggests 
considerable cost savings while significantly reducing in-transit 
deployment time for Marine forces. Based on these encouraging initial 
returns, we are pursuing the HSV as a theater-lift asset in USPACOM.
    Real world operations in other theaters are impacting USPACOM's 
exercise program. We are beginning to face regular shortages of airlift 
and aerial tankage. This, in turn, makes it more difficult to train 
soldiers, sailors, airmen, and Marines that we are depending on to 
execute ongoing operations. For example, to send the 3rd Wing to Red 
Flag to prepare them for deployment to Operation Southern Watch, we 
will need to contract civilian airlift at a cost of approximately $1.1 
million. The original budget was $250,000 using KC-10. Overall, the 
PACAF exercise program has been cut $734,000 and the JCS exercise 
program was cut $1.2 million. Successful achievement of combat 
readiness training will hinge largely on sufficient funding for 
exercises.
Intelligence
    The events of 11 September have introduced additional requirements 
on our already heavily tasked national and tactical intelligence 
systems. The demand for precise and timely intelligence has never been 
greater, including in-depth understanding of long-term potential 
adversaries, regional hotspots, and transnational threats--terrorism 
and the proliferation of weapons of mass destruction.
            Signals Intelligence (SIGINT)
    National and tactical SIGINT systems must be modernized to meet the 
advances in global telecommunications technology. National Security 
Agency (NSA) and Service SIGINT capabilities are key to our daily 
operations and the execution of OPLANs and contingencies in the USPACOM 
AOR. They must be funded to continue modernizing SIGINT collection 
capabilities against both modernized militaries and terrorists. Funding 
is also needed to replace the Kunia Regional Security Operations Center 
(KRSOC) and accompanying land-based collection architecture.
    Our support to Operation Enduring Freedom (OEF) has exacerbated our 
peacetime shortage of intelligence collection aircraft. While 
additional aircraft are in the pipeline, we still need more in the 
inventory to help us reach and maintain our longstanding minimum 
theater requirements, and we need them soon. We encourage development 
of a follow-on to current manned aircraft and await availability of 
high altitude, long dwell, unmanned aerial vehicles. We must also 
upgrade the collection equipment on the aircraft. This is especially 
true for SIGINT, where existing collection equipment is ineffective 
against modern communication technology. Similar land and maritime 
collection capabilities also need upgrades. USPACOM fully supports 
integrated, joint development of the next generation signals collection 
tools, along with further consolidation of funding to hasten this 
event. Extra aircraft and new collection tools are meaningless, though, 
if we lack trained personnel to exploit the information. The existing 
shortage of linguists has worsened due to the war on terrorism. We now 
face regional languages and dialects never considered important before 
11 September.
            Imagery Analysis
    Requirements for imagery continue to grow. New platforms are 
producing an increasing flow of data, but our ability to exploit this 
data has not kept pace. We are doing well on the Tasking portion of the 
Tasking, Processing, Exploitation, and Dissemination (TPED) of imagery, 
but insufficient communications and lack of imagery analysts hamper the 
remaining aspects of the process. Additional funding is needed to 
realize the full potential of this intelligence source. USPACOM still 
requires a robust theater-level intelligence gathering capability 
against the entire threat spectrum.
Command, Control, Communications, and Computer Systems (C\4\) 
        Capabilities
    Information technology (IT) continues to influence warfare at every 
turn. C\4\ is the unsung workhorse of any operation, requiring 24 hours 
a day/7 days a week reliable, timely and uncorrupted service. As 
evidenced by the world's recent response to terrorist events, the need 
for information sharing between service, joint, and coalition partners, 
as well as local, state, and federal organizations, has increased 
exponentially. This requirement places a strain on an already 
antiquated and stressed communications network. Since C\4\ encompasses 
a wide spectrum, I will focus on three primary areas of continued need: 
(1) an end-to-end communications infrastructure, (2) information 
assurance, and (3) interoperability.
    First, the end-to-end communications enterprise provides the 
foundation to electronically link garrison and forward-deployed forces 
to commanders at all levels. USPACOM's vast AOR, mostly separated by 
ocean and encompassing countries with under-developed C\4\ 
infrastructures, requires forces to rely heavily on satellite 
communications (SATCOM). We continue to make great strides in many of 
the SATCOM programs and I thank you for your continued support. 
However, aging equipment and specifically, limited Ultra High Frequency 
(UHF) SATCOM capacity over this AOR, is fast becoming a factor in my 
ability to command and control forces. With the recent terrorist 
attacks and our ongoing efforts to root out terrorism as a whole, 
SATCOM connectivity to our highly specialized forces is more critical 
than ever before. The new challenge is to ensure that critical SATCOM 
upgrades, the fielding of new satellite programs, and the launching of 
new satellites remain on track to replace the aging fleets currently 
orbiting the earth in support of warfighters.
    As an inseparable partner with the space segment, we must inject 
similar technology advances into the base, post, camp, and station 
infrastructures. In the Pacific Theater, we still operate on cables and 
wiring installed as far back as the 1960s. These cables are no longer 
dependable. Coupling this condition with the ever-increasing user 
requirements for more and more information, we must quickly modernize 
to support the growing bandwidth and increased speed requirements of 
our intelligence gatherers, planners and warfighters. Information is 
truly a force multiplier.
    Our second focus area is information assurance (IA). How we protect 
our sensitive information from potential adversaries while providing 
access to, and sharing it with, our coalition partners is probably the 
toughest challenge we face in today's C\4\ environment.
    Although we have made significant strides to improve IA in USPACOM, 
we are far from 100 percent protected. Cyber warfare never rests. Our 
USPACOM networks continue to receive daily cyber probes and potentially 
dangerous virus and hacker attacks. They can occur at any time and any 
place in the theater and the consequences can be severe, if we are not 
on guard around the clock. The payback for IA is not always as easily 
recognizable as with the production of new airplanes, ships, or tanks. 
You cannot touch and feel information protection, but a loss of 
critical or time-sensitive information, or a denial of service, can be 
far more detrimental to national security than any single weapon 
system. An example of the heavy IA investment needed for additional 
hardware is the protection afforded by current cryptographic equipment 
to secure networks for command and control of daily operations. 
Replacement parts for this aging equipment are difficult to obtain--a 
limiting factor as technology increases the speed, connectivity, and 
capacity of our networks. Cryptographic modernization programs are 
essential to improve the effectiveness of the U.S. Government 
cryptographic inventory. For example, airline flight schedules and 
blueprints of our embassies are simply tidbits of information. But, 
that information in the wrong hands may improve the enemies' chances of 
producing devastating results as evidenced by recent terrorist 
incidents.
    Ongoing IA improvements will require a continued heavy investment 
in equipment, training and technically skilled people. I ask for your 
support as we strive to implement a ``defense in depth'' posture into 
our daily information operations.
    The third C\4\ area is interoperability. The events of 11 September 
have caused us to concentrate hard on interoperability, especially with 
civilian and coalition partners in support of global counter-terrorism 
efforts. We must reassess our processes in these areas.
    I firmly believe we must revamp our acquisition system, especially 
in the area of IT. Long-term replacement programs are detached at an 
early stage from the dynamic reality of operations and warfare. They 
emerge decades later with new systems that are better than what they 
replace, but not as good as what they could or should be in meeting the 
needs of the warfighter.
    Our system does not put engineers together with the operators to 
fix real operational problems, deal with real war plan deficiencies and 
emerging threats, or take advantage of real opportunities. The current 
system, which drives the actions of the detached bureaucracy of 
requirements writers, contracting officers and program managers, is 
only tenuously connected to what our forces need to operate and fight 
better. We must integrate the engineers with the operators in a spiral 
development approach in which we build a little, test a little, and 
then build a little more. Let them see firsthand the interoperability 
problems that exist between civilian, joint and coalition 
organizations. For example, our Joint Task Force (JTF) commanders use 
service variants of our Global Command and Control System (GCCS), 
because the joint version is not as capable as the service variant and 
is not fully fielded across the theater. As another example, the land 
mobile radio systems that our police and fire departments use are not 
interoperable with our military systems. These incompatibilities 
prevent key personnel from sharing critical information in a timely 
fashion, and could easily lead to catastrophic results.
    We can address many of these interoperability issues by using this 
spiral development approach, and putting engineers in the field during 
joint exercises, training maneuvers and technology demonstrations. 
Initially, this approach comes with an increased cost until we can 
identify capabilities in programs that we do not need. But the timely 
and increased operational capabilities provided to the warfighter as 
result of it more than justify the initial expense.
    Maintaining our leading edge in C\4\ technology, assuring our 
critical information and improving interoperability with our coalition 
partners are essential to protecting American security interests in the 
21st century. Our command is working hard to mitigate these 
limitations; however, we need increased C\4\ funding to maintain the 
operational edge over our adversaries.
Multiple Theater War Sustainment Issues (Harvest Eagle, APS-4)
    Refurbishment and reconstitution of Air Force Harvest Eagle bare 
base assets are key to both current operations plans (OPLANs) and 
USPACOM operations in support of the global war on terrorism. Harvest 
Eagle's tent-based housing modules allow forward-deployed or 
reinforcing units to establish airfield operations where local 
infrastructure is austere or lacking. Degraded before their use in 
current operations, our deployable bare-base assets capacity will 
continue to be a limiting factor to executing OPLANs and contingencies 
without fully funding refurbishment and reconstitution.
    Shortfalls in pre-positioned equipment and supplies to support 
combat operations in the Korean Theater of Operations are also of major 
concern. The Army maintains a strategic inventory of sustainment 
supplies as part of Army Pre-positioned Stocks (APS). These stocks 
sustain forward-deployed and initial follow-on ground forces, and 
include major end items such as engines, repair parts, medical 
supplies, packaged petroleum products, barrier/construction materials, 
operations rations, and clothing required to sustain combat operations.
    Additionally, we have significant shortfalls in Army APS-4 
Sustainment Stocks designated to replace projected combat losses, 
especially critical during the early stages of a major theater war 
(MTW) on the Korean Peninsula. Within these sustainment stocks, Class 
VII (Major End Items) and Class IX (Repair Parts) have the most serious 
shortfalls. Finally, less than 30 percent of Joint Service Lightweight 
Integrated Suit Technology chemical protection suits (to support 
operations in a nuclear, chemical, biological environment) are 
available in sustainment stocks. The combination of these shortfalls 
degrades our ability to conduct sustained combat operations on the 
Korean Peninsula.
                      uspacom force transformation
    Our enemies and potential enemies are working hard to develop ways 
to defeat the U.S. Armed Forces. We cannot allow our current military 
dominance to lead to complacency and future defeat. Force 
transformation is a priority at USPACOM. We have made rapid progress 
over the past year in developing Joint Mission Force capabilities, in 
our Advanced Concept Technology Demonstrations (ACTDs) and in aligning 
force transformation with our Joint Training and Theater Security 
Cooperation (TSC) plans. Experimenting as we exercise and operate is 
becoming routine. Individual commanders are also making advances 
through their own initiatives, with service and USPACOM support. 
Examples include the High Speed Vessel (HSV) that Marine forces on 
Okinawa have leased to make movement within the theater faster at less 
expense and the development of numerous networking and decision support 
capabilities. We continue to work closely with U.S. Joint Forces 
Command (USJFCOM), the executive agent for joint force experimentation, 
and are increasing the involvement of allies and coalition partners to 
enhance interoperability and combined force capabilities as we 
transform U.S. forces.
Joint Mission Force (JMF) Objectives
    The objectives of USPACOM's JMF concept are to enhance the speed of 
action, precision, and mission effectiveness of Theater Joint Task 
Forces (JTFs). Our vision is to create a seamless Joint/Combined 
Pacific Theater response force capable of accomplishing the full 
spectrum of missions, from a complex contingency through humanitarian 
assistance (HA), and serving as the leading edge during a major war. 
This transformation effort has moved from its concept development in 
war games to implementation in exercises that enhance our ability to 
rapidly form and deploy a JTF.
    Through the JMF concept, Battle Staff Rosters supported by service 
components now provide tailored on-call augmentation for key billets at 
USPACOM's designated JTF headquarters. These staffs are trained to 
provide the performance of a Standing JTF Headquarters, without 
incurring the overhead of a separate organization. Command 
relationships for designated JTF and component commands are already 
established and rehearsed to enable rapid activation and deployment.
    Command, control, communications, computers, intelligence (C\4\I) 
baseline requirements have also been established and are routinely 
tested in our command and control exercise program to ensure our 
ability to establish a common operating picture and theater network for 
collaborative planning. Our JTFs now use newly published CD-ROM based 
and Web-accessible standard operating procedures (SOPs) internally 
linked with checklists and templates. Information management serves as 
the foundation for the SOP, and is supported by a standardized JTF Web 
site that facilitates Web-centric information pull. Our primary JTFs 
now train to assigned missions with packaged, mission-oriented training 
standards, including new tasks designed to examine draft doctrine 
linked to technology, for integrated and synchronized fires and 
maneuver.
    The current focus for transforming JTF capabilities are in the 
areas of joint fire and maneuver, battle space situational awareness 
and the common operational and tactical pictures, coalition force 
integration, force protection, and rapid JTF formation.
    Based on 3 years of development, the JMF concept is our prototype 
standing JTF Headquarters. JMF provides greater flexibility for 
multiple crises, capitalizes on component core competencies, requires 
no additional manpower, and allows for normal service rotations and 
deployments.
    During Exercise KERNEL BLITZ (EXPERIMENTAL) in June 2001, we 
demonstrated Wide Area Relay Network (WARNET) technologies in the 
Extending the Littoral Battlespace (ELB) ACTD. Our follow-on JTF WARNET 
initiative will provide our JTFs with organic, wireless, and secure 
connectivity for planning and execution at the tactical level. The JTF 
WARNET communications network, associated applications, and interfaces 
support joint forces across a widely distributed battlespace to provide 
real-time and near real-time command and control (C\2\), collaboration, 
common tactical picture and joint fires across service boundaries. 
Under the technical leadership of the Office of Naval Research with 
substantial funding support from OSD, JTF WARNET development continues 
for prototype deployment with operational forces in 2004.
Coalition Involvement in Joint Mission Force (JMF) Efforts
    Our JMF concept is an essential part of Theater Security 
Cooperation (TSC). To improve regional readiness for coalition 
operations, we are developing a Multinational Force (MNF) SOP tailored 
from the JTF SOP we built last year. This more generic document will 
include broad operational considerations that our multinational 
partners can readily implement when one acts as the lead nation with 
the United States serving in a support role. The Multinational Planning 
Augmentation Team (MPAT) serves as the instrument for MNF SOP 
development. The MPAT conducts collaborative development of the 
document over the Asia-Pacific Area Network (APAN) and at workshops in 
the region. Joint Experimentation with coalition partners is 
coordinated in bilateral venues such as the Annual Staff Talks with 
Singapore and Australia. This spring, USPACOM will fully involve 
coalition partners by hosting a Coalition Transformation Workshop as 
part of our annual ACTD conference.
Joint Task Force (JTF) Joint Experimentation Program (JEP)
    Our JTFJEP focuses on transforming JTF operations and is fully 
coordinated with the JEP of USJFCOM. Our JTFJEP includes technology 
insertion experiments during exercises to advance our practice of JTF 
operations, both in the United States and coalition venues.
    This year we have planned two major experiments. The first 
experiment will occur as part of our command and control exercise 
(C\2\X) series where we train for rapid formation of a JTF. Our C\2\Xs 
over the past year made significant advances in sharing common 
procedures and a common operational picture (COP) among JTF subordinate 
commanders, and in collaborative planning. We will experiment next with 
advanced capabilities to manage and control information flow on the JTF 
networks, and incorporate advanced fires management capabilities. Our 
second experiment will be in a coalition environment during Exercise 
COBRA GOLD with Thailand, Australia, Singapore, and Malaysia. By 
experimenting as we exercise, we provide a continuous series of field-
tested warfighting improvements in joint and combined operations before 
we make key procurement decisions.
Advanced Technology Development
    I am a strong supporter of USPACOM's Advanced Concept Technology 
Demonstrations (ACTDs). They provide important near-term joint and 
combined warfighting capabilities. Since I last spoke with you, USPACOM 
has been awarded six new ACTDs, bringing the number of ACTDs involving 
USPACOM to 18, more than any other major command. Almost all our 
service Component Commanders, designated JTF Commanders, Subordinate 
Unified Commanders, and each of my Staff Directors have responsibility 
for executing one or more ACTDs. USPACOM forces are involved in 
transformation across the theater.
    Our six new ACTDs will provide new operational and tactical 
capabilities.
  --The Micro Air Vehicle ACTD will provide small units enhanced 
        situational awareness using miniaturized sensors on a man-
        portable unmanned air vehicle.
  --The Language and Speech Exploitation Resources ACTD will reduce 
        language barriers and improve coalition operations by providing 
        a tool to automatically translate languages.
  --The Joint Explosive Ordnance Disposal--Knowledge Technology 
        Operations Demonstration ACTD will provide Explosive Ordnance 
        Disposal (EOD) teams in the field with a portable, rapidly 
        updateable, computerized database for safely disarming 
        explosive devices in the field.
  --The SPARTAN ACTD will provide enhanced battlespace awareness and 
        increased force protection for surface and subsurface 
        operations, by demonstrating the capabilities of unmanned 
        surface vessels with modular sensor packages. SPARTAN is also 
        the leading candidate for an improved TSC initiative involving 
        co-development of advanced capabilities with coalition 
        partners. The Singapore Armed Forces are interested in co-
        developing this system with us.
  --The Thermobaric Weapon ACTD provides a standoff weapon for 
        attacking tunnels and underground facilities. This program 
        potentially provides two to three times the lethality over 
        currently fielded penetrating weapons.
  --The Signals Intelligence Processing ACTD provides improved 
        capabilities to collect and process signals.
Coalition Theater Logistics
    In parallel with transforming our forces, we must also bring along 
coalition partners. Last year, I testified that, thanks to your strong 
support, we were starting work on our Coalition Theater Logistics ACTD.
    This is an important initiative, co-sponsored by Australia, to 
demonstrate how coalition logistics information can be exchanged at the 
national, operational and tactical levels. Over the last year, we've 
finalized operational requirements; signed a project arrangement with 
Australia that leverages technology from both countries, and embarked 
on a technical development program that puts us on the brink of 
providing a coalition force with a breakthrough capability--plan and 
execute coalition force deployment through selective information 
exchange between existing national logistics information systems. 
Continued support will ensure that we achieve all our objectives.
    We have also partnered with Thailand and are beginning discussions 
with Singapore, Korea, and Japan to partner with them during future 
phases of ACTD development. In parallel with transforming our forces, 
we must also bring along coalition partners.
Joint Warrior Interoperability Demonstration (JWID)
    USPACOM is the designated-host Commander in Chief for the fiscal 
year 2002 and fiscal year 2003 execution of the Joint Staff J6I-
sponsored JWID. Despite numerous other interoperability and 
transformation initiatives in progress, JWID has exceptional potential 
to address the real and near-term command, control, communications, 
computers, intelligence, surveillance, and reconnaissance (C\4\ISR) 
interoperability challenges facing joint and coalition operations. 
Working with the U.S. Marine Corps, this year's lead service, USPACOM 
has broadened the scope of challenges being investigated, focused the 
operational environment underpinning JWID to simulate demands of 
current military operations, expanded the list of countries 
participating to include Pacific Rim countries for the first time, and 
introduced warfighter rigor in executing the demonstration period and 
assessment of proposed technology solutions.
    U.S. industry and government activities have responded to the call 
for interoperability solutions that span the C\2\ spectrum from 
strategic to tactical and that embrace new approaches to challenges in 
the situational awareness, common operating picture, decision support, 
collaboration, logistics, multi-lingual, joint and coalition fires, 
multi-level security, and medical arenas. For the first time, there 
will be incipient focus on support for humanitarian assistance and 
disaster-relief enablers. Due to success in our JMF program, USPACOM 
has introduced a Combined Task Force Web-portal interface for 
organizing, visualizing, and transferring the products produced by 
various JWID demonstrations and interoperability trials.
    We have also made a concerted effort to enhance the understanding 
and participation by other Commanders in Chief to ensure that the 
results from JWID will deliver solutions to the C\4\ISR challenges that 
each of them confront in routine and contingency operations.
Multi-Domain Dissemination System (MDDS)
    An unresolved challenge of furthering coalition readiness in the 
Pacific is the problem of multi-level security. Our intelligence-
sharing relationships with our theater partners vary from country to 
country. Therefore, completely separate structures for passing 
classified information are required to interoperate with each 
individual country. To meet this requirement, developing and 
accrediting multi-level security technology, such as the MDDS, remain a 
high-interest item in USPACOM. Such technology and capability is 
imperative toward fully realizing our engagement strategy for any 
Pacific coalition force.
                           summary statement
    In summary, the forward deployed and forward-stationed forces of 
the U.S. Pacific Command are making a difference in promoting American 
interests in security and peaceful development in the Asia-Pacific 
region. We are relentlessly pursuing terrorists that threaten American 
citizens and interests. With a sustained effort and support of regional 
partners, we will succeed in rooting them out. U.S. Pacific Command's 
priorities remain readiness, regional (theater) security cooperation, 
and transforming U.S. forces to achieve a revolution in military 
affairs. The men and women of the U.S. Pacific Command appreciate this 
opportunity to tell their story and the support that you give them.

    Senator Inouye. We thank you on behalf of the Committee for 
the many years of service you have provided us and the people 
of the United States. To say that we will miss you is an 
understatement.
    I would like to begin questioning with a matter that is not 
related to any one of the countries we visited but it is one 
that affects the whole military.

                          UNIFIED COMMAND PLAN

    Admiral, under the proposed Unified Command Plan, the 
Continental United States would come under the jurisdiction of 
a new command, the Northern Command. And we have been told that 
it is likely that a followup to this would be to place all of 
the forces in the Continental United States under the 
administrative control of the Joint Forces Command. This would 
mean that the 3d Fleet, which is stationed on the west coast, 
and the Marines would no longer be directly assigned to the 
Pacific Command.
    What impact would this change have on your day-to-day 
activities and your ability to deter aggression and maintain a 
robust cooperative engagement strategy?
    Admiral Blair. Mr. Chairman, I believe that with the 
current arrangement of forces in the Pacific Command, in which 
the 3d Fleet and the 7th Fleet and the 1st and 3d Marine 
Expeditionary Force are assigned to the Pacific Command, we are 
able in a very efficient and effective way to plan for the 
contingencies that may happen in the region, and to ensure that 
we can be ready for those contingencies and therefore deter 
them from occurring, and we are able to build linkages on a 
day-to-day basis between all of our Pacific Command Forces and 
our allies and partners in the region.
    I also didn't mention the First Corps, Army Corps in Fort 
Lewis, which is also part of our forces. For example, they 
conduct the COBRA GOLD exercise in Thailand every year and are 
present every year and are building a steady support for U.S. 
interests in the region.
    In addition, we find that those forces are--because they're 
concentrating on the specific challenges and operations in the 
Pacific--really have their heads in the Pacific game and are 
supporting our interest on a day-to-day basis. I believe that 
alternative arrangements do not provide that same focus on the 
Pacific, which is very important to us. And the proposals that 
I have not seen do not duplicate that very important emphasis 
and ability which we now have.
    I fully support the establishment of a Commander-in-Chief 
to be responsible for a homeland defense. We in the Armed 
Forces need to be better organized and concentrate better on 
it. However, I believe that the arrangements between the 
Pacific Command and a homeland defense Commander-in-Chief for 
the Northern Command can be made so that we, in the Pacific 
Command, can provide forces necessary for homeland defense. We 
can, in fact, be the single commander of homeland defense for 
Hawaii and Alaska, yet linked to the homeland defense which 
will provide that sort of capability. But I believe that the 
main combat forces which are on the west coast should lean 
towards the Pacific and be part of the Pacific Command.
    Senator Inouye. I find it strange to have the 3d Fleet 
under the administrative control of the offices in Norfolk, 
Virginia. That's about 2,500 miles apart with a land base in 
between.
    My concern is that--we have been on several trips to Asia, 
Senator Stevens and I, and we have assured them that we would 
maintain our military posture there and our presence. And some 
may argue that this is just an administrative change but it 
will have a control change and if this is ever translated in 
such a way that people in Asia would get the idea that we are 
beginning to withdraw our forces and thereby show our lack of 
interest there, then we're in deep trouble.
    On this trip that we went to, before then I was concerned 
about China and Taiwan. I was concerned about North and South 
Korea. But, Admiral Blair, I'm much more concerned about what 
is happening in Indonesia, a land that may have control over 
the Malacca Straits which would cut the line for the transport 
of oil and other goods. I would be concerned about what happens 
to the Spratlys.
    I think we should keep in mind that 90 percent of the 
population of Indonesia is Muslim. And we have tried our best 
to convince people that this is not a war against Muslims, it 
is a war against terrorists. The vast majority of the Muslims 
in Indonesia are friendly.
    And I reminded our friends abroad that, after all, not too 
long ago we had another terrorist attack and the perpetrator 
did not have a beard or a turban, it happened in Oklahoma City.
    I also pointed out that we have been always sensitive to 
what's happening in Ireland. So terrorism is worldwide. But do 
you agree that the problem in Indonesia may have catastrophic 
results on our presence here?
    Admiral Blair. Mr. Chairman, before I answer that question, 
may I go back to just one point on our previous discussion, 
please?
    As far as administrative support for forces in the Pacific, 
I believe that there are efficiencies that the Services can 
make in terms of looking across the entire Service and some of 
Admiral Clark's, the Chief of Naval Operations (CNO's), 
initiatives in order to more efficiently do things like 
maintenance and supply support and the administrative functions 
I think are admirable.
    What I believe is important that we keep pointing towards 
the Pacific as the operational and combatant focus of those 
forces. So if we can get greater efficiency in some of our 
administration and support areas by doing things the same for 
the Atlantic and Pacific forces, I'm all for that. I think it 
saves money and makes our dollar go further. But I believe it's 
combatant and operational control that ought to continue to 
look west, sir.

                               INDONESIA

    On Indonesia, your evaluation of the importance of that 
country is absolutely correct. And I think that if we ignore 
what's going on in that country, it would be peril. Indonesia 
is a big country, 16,000 to 17,000 islands, a population 
comparable to that of the United States, stretching over a land 
area comparable to the United States. So it's difficult to sum 
it up in simple sentences. But I strongly believe that the 
United States should support those in Indonesia who are working 
through a set of extremely challenging reforms in that country.
    Indonesia is trying to reform its political system towards 
a more representative democratic form after 38 years of strong 
man rule. It is trying to reform its economy. It's trying to 
reform its armed forces, which has a long tradition of taking a 
role in the internal affairs of the country.
    I think there are a large number, in fact a majority, of 
Indonesian leaders who are looking for a modern, secular, 
advanced, business-friendly state which is very much in the 
U.S. interest and we can work with them. And we should support 
them whether they are in uniform or elsewhere in the Indonesian 
society.
    There are other groups in Indonesia which have quite 
another vision for Indonesia imposing a religious law on the 
country. There's a strong anti-western, particularly anti-
American, strain to their thinking. There is certainly 
rhetorical support for some of the terrorists acts against the 
United States. And I think we should oppose those in Indonesia 
who hold that view and we should be very clear that that is not 
the sort of Indonesia that is in Indonesia's interest or in our 
interest.
    So I believe that we should pay attention to Indonesia. I 
believe we should work with those who have the vision of 
Indonesia which can share interest with the United States, and 
I believe we should work against those who have anti-American 
interests and believe that it's alright to attack Americans. An 
Indonesia which is a danger to the United States is something 
we should oppose.
    And I agree with you completely that were Indonesia to--
well, the term here is ``fall apart'', and it's not really fall 
apart but become more lawless in these fringe regions where law 
and order may be thin where pirates can develop and where there 
are insurgent movements, should those become even more violent 
that also is against the interest of Indonesia and the United 
States and would be very bad for the region.
    Senator Inouye. I have many other questions but may I now 
call upon the co-chairman.
    Senator Stevens. Thank you very much, Mr. Chairman.

                                 CHINA

    As you mentioned, Admiral, I served in China in World War 
II. We have seen an increasing flow of students now coming from 
China to the United States. And it appears to us from our trip 
that we've just taken that military links with the Chinese 
people are absent and it's a glaring absence.
    How do you characterize the current level of military 
contacts with the Peoples Liberation Army of China?
    Admiral Blair. The current level of contacts is at a 
relatively low level. And you really have to go back a bit to 
the EP-3 incident of about 1 year ago when China insisted that 
the United States apologize for an incident that was clearly 
caused by the bad airmanship of a Chinese pilot soured our 
relationships.
    Since then, overall relationships between the two countries 
have evened out, particularly with the two visits President 
Bush made to China, and his most recent one last year. But our 
military relationships have not resumed.
    I think that there are several areas in which we and the 
Chinese Armed Forces should interact. I would say that we 
should interact in multi-lateral forum in which we are dealing 
with common problems in the region, and we should be working 
together on things like combating piracy, on combating drugs, 
on combating terrorism, on peace enforcement operations, and on 
humanitarian assistance. These are things that all countries, 
and China and the United States included, should cooperate on. 
And we are doing some of that in seminars and in some exercises 
but I believe we should emphasize that those are things that 
the United States and China have in common.
    I also believe that Chinese officers should come study in 
the United States just as officers of other military 
organizations do, in order for them to understand more about 
the United States. I believe that understanding more about the 
United States is positive for Chinese officers as it is for 
other officers. And I believe that our officers should also go 
and spend more time in China learning about them.
    I think that it is to the advantage of the United States' 
Armed Forces and the People's Liberation Army to know one 
another better, and to know the true capabilities, as well as 
what's on the minds of the others, because I think that 
miscalculation could be very serious between us. And the better 
knowledge will lead to less miscalculation.
    That being said, there are some characteristics of past 
interaction with the Chinese Armed Forces that we need to 
address, and one is the issue of reciprocity. The pattern in 
the past has been that the United States has primed the pump. 
We have given wider access to our people and facilities than 
China has in return, and I think it's time to even up some of 
that balance. For example, Chinese ships have been to three 
U.S. ports, U.S. ships have been to two Chinese ports. I think 
before we expand that, it's time for China to open additional 
ports. So I don't think this can be a one way relationship. I 
think there has to be a reciprocity as we go forward.
    I also think that, with China, we need to get beyond the 
political posturing that generally takes up the first part of 
any meeting. And I'm sure that you experienced that when you 
visited China, these discussions about Taiwan which dominate 
meetings. I think we should get on to the professional subjects 
which are in our interest. And we tend to see a rather large 
number of professional political officers rather than 
professional military officers when we interact with the 
Chinese, and I think we should get on more of an ``operational 
officer to operational officer `and' operational non-
commissioned officer (NCO) to operational NCO basis.'' So I 
believe there are some standards we should apply to this 
relationship but I also believe that the goals are important 
that we interact.
    Senator Stevens. Well, in your capacity as the Commander-
in-Chief of the Pacific, can you make those decisions to 
increase the level of cooperation or do you need special 
concurrence from the Department before you can resume the 
practices of the past?
    Admiral Blair. Right now the system is, Senator Stevens, 
that individual events which the Pacific Command and other 
officers in the Department of Defense may want to pursue are 
proposed to the Office of the Secretary of Defense and then 
approval is given centrally. So it's a case by case approval of 
each event.
    Senator Stevens. But that's not your job. You have to go to 
the Department for that approval?
    Admiral Blair. That's correct, sir.
    Senator Stevens. That's a change from prior circumstance, 
isn't it?
    Admiral Blair. That is a fairly recent requirement, yes, 
sir. Previously, we had an annual program that was approved as 
a single body and then we executed it. Now it's a ``one event 
at a time'' approval process.

                               INDONESIA

    Senator Stevens. Shifting over to Indonesia, we had a very 
interesting meeting with the commander of the Indonesian Army, 
General Sutarto. He is a graduate of the Army Infantry Training 
School at Fort Benning and wore with pride his ranger emblems. 
I, personally, was very pleased with his candor in dealing with 
us. He seems to want to foster future increases in 
relationships between the Indonesian Army and the Armed Forces, 
the TNI's he calls them, and our people.
    Do you believe that it is time now to resume those 
contacts, and particularly for us to insist on restoring the 
IMET type of participation by the Indonesian Army?
    Admiral Blair. Yes, sir. I believe strongly that we should 
restore a full IMET, not the so-called expanded IMET which we 
now pursue. And we should bring uniformed military officers to 
our Command and General Staff Colleges as we did as generals of 
General Sutarto's generation did in the past. And I believe 
that we should also implement the Regional Security Fellowships 
which were also passed by the Congress and signed by the 
President last year. I think we all gained over the long-term 
by having military officers come, study in our institutions, 
meet Americans, and then return to their own countries.
    In addition, I think that we should cooperate with the TNI 
in several specific areas in which we have very closely shared 
interests. And combating terrorism is probably the most 
pressing right now but there are others, combating piracy, 
stemming the flow of illegal immigrants that washes through 
Indonesia.
    These multi-lateral operations in support of peacekeeping 
Indonesia has had a proud peacekeeping tradition in the past 
and I think it's something that we could work together on.
    As you heard from General Sutarto, and he's one of the main 
proponents of it, the Indonesian Army is going through a reform 
right now, becoming more professional, getting away from the 
so-called ``dwi-fungsi'' system in which military officers 
actually fill civilian policy positions within Indonesia. And 
these reforms are extremely important. And I believe that we 
should ratchet up our military relationship with them as they 
achieve these reforms.
    And eventually when they achieve them all and when, for 
example, there's full accountability for the actions of TNI 
officers who are accused of bad behavior in the field, then we 
can get back to a full relationship. But short of that, I 
believe we should cooperate on these individual items which are 
in our interest. And I certainly believe that IMET is very much 
in our interest.
    Senator Stevens. Thank you. With your permission, Mr. 
Chairman, I return to Alaska this afternoon and will be meeting 
with our military people at the annual military appreciation 
dinner in Fairbanks.

                             NORTHERN EDGE

    Are you planning to deploy forces to NORTHERN EDGE 
exercises again this year? Could you give us some judgment in 
how important those are to the readiness and preparedness of 
the Pacific Command? And are there any changes in 
infrastructure or training enhancement concepts that you would 
like to see made to the ranges or other facilities in Alaska 
that would better support the NORTHERN EDGE exercises in the 
future?
    Admiral Blair. Yes, sir. Senator Stevens, this year, we 
have some very important training to be done in NORTHERN EDGE 
that will involve terror based aviation working together with 
Air Force land based aviation. And this is an area that we 
always get into when an operation starts, but we don't practice 
nearly as much as we should. So we often find that we are 
adapting when Navy airplanes meet Air Force airplanes in the 
same space. And this year's NORTHERN EDGE exercise will be able 
to work that out where you can really try different things, 
critique them, and try them again, vary them, and we look for a 
great deal of progress there.
    In addition, we have several other joint training aspects 
which are important to us in that part of the world or point to 
us in joint operations.
    I find myself receiving constant reports from around the 
theater about pressure on our training ranges throughout the 
theater. It's true in most of the United States. It's certainly 
true overseas, restrictions on space, restrictions on hours, 
restrictions on radio frequencies that we can use for our 
equipment.
    And the importance of ranges in Alaska, the importance of 
ranges here in Hawaii off of Barking Sands were important 
already, but as I look to the future, they are becoming even 
more so. And I think that we need to continue with a steady 
program of instrumentation of those ranges so that every 
training minute counts.
    An exercise that you just go up and do, and you do it, is 
better than nothing, but it doesn't make a long term 
contribution. And an exercise which you go up, you record, you 
take apart, you not only train the people who were involved in 
it, but then you put those lessons into your doctrine so that 
you can do it better next time. This continues to raise the 
whole level of our Armed Forces.
    And as longer range weapons and as more disputed operations 
come in, operations like that we're going to be conducting with 
the Interim Brigade Combat Team that you mentioned, we need to 
have changes of instrumentation on our ranges. In the case of 
Hawaii, we need a little more space here on Oahu to do it. And 
that sort of emphasis of our two premier Pacific training 
ranges, I think, is something we have to pay attention to in 
coming years.

                                  C-17

    Senator Stevens. And we've got a joint interest with Hawaii 
in the C-17, Admiral. We have tried to assure that there be 
sufficient numbers of C-17's that would be dedicated to the 
Pacific. And by increasing the planned procurement, we should 
have a sufficient number that could be dedicated and split 
between Alaska and Hawaii.
    We have the forward deployed forces in our area that are 
supposed to be capable of moving to prevent crisis developing 
along the Pacific rim, and I'm very hopeful that we can get 
control of them.
    It is my judgment there should be some 16 of those C-17's 
available for the Pacific. What is your judgment as to whether 
those aircraft should be designated to the Pacific Air Forces 
or to the Air Mobility Command as apparently some people want 
to achieve their assignment to the Air Mobility Command rather 
than the Pacific Air Forces? Do you think the Pacific Air Force 
should have those C-17's?
    Admiral Blair. Senator Stevens, with 52 percent of the 
world to cover, we make up a healthy chunk of what 
Transportation Command (TRANSCOM) has to cover and we find that 
we are short on long range transport aircraft like C-17's on a 
day-to-day basis.
    So as we continue to build those extremely important 
platforms, which I've advocated for several years, I believe 
that we can easily absorb 16 of them to do chores that are not 
only in the national interest but will help us in the Pacific 
Command region.
    We are talking right now with Transportation Command about 
how we would--about the control and command of those forces. 
And there are also important considerations concerning the 
Guard/Active mix of those two units here, one here in Hawaii 
and the other in Alaska.
    I think we are on the verge of a solution which will give 
the operational responsiveness that we need which will provide 
the Guard in Hawaii and in Alaska with a real role and with a 
sustainable force and which will give TRANSCOM the ability to 
carry out its worldwide responsibilities at the same time that 
we're watching 52 percent of the globe for it. So I think we're 
very close to a solution which will satisfy all three sets of 
those demands, Senator.
    Senator Stevens. Would that mean they would be under the 
command of the Commander-in-Chief of the Pacific?

                                TRANSCOM

    Admiral Blair. I think the solution towards which we are 
working would have them under the operational control of the 
Pacific Command and their combatant command assignment which 
would still be to the TRANSCOM but the operational control 
would be under Pacific Air Forces. And I think that arrangement 
would satisfy both the needs that we have and the 
responsibilities that--the ultimate responsibilities that 
TRANSCOM has. And we're very close to wrapping that up, 
Senator.
    Senator Stevens. Mr. Chairman, I'm reminded of the comments 
that many of the war time commanders of Alaska, the World War 
II commanders of Alaska, have often told me. That is, in the 
event of crisis, in an Alaskan war you have to survive with 
this, with the assets that are under the control of the 
commanders in those two States. We won't get any reinforcements 
for quite some time.
    If, God forbid, that requirement ever comes to you or your 
successor, I fully hope that we'll be able to work with you all 
to make certain that the capabilities are here to meet the 
urgencies of carrying out our role and preventing the spread of 
crisis throughout the Pacific. That, to me, means the absolute 
necessity to have the air transport capability to deploy our 
forces readily and not have to wait for them to come to us from 
some center in the Continental United States, like the one in 
Nebraska or down in South Carolina.
    If we have to wait for that transport, our forces will be--
orphan forces. They'll be here and not transportable and our 
whole process of training and equipping and deploying forces 
here for ready use to prevent crisis from further developing 
will be lost.
    I think of all of the things we worked on and assessed and 
maintained, the independence of the forces in the Pacific 
Command, in order to assure that our presence in the total 
Pacific is meaningful is the essential item for me.
    Thank you, Mr. Chairman.
    Senator Inouye. If I may, Admiral, I'd like to follow up on 
the questions and comments made by my colleague.
    On the matter of the United States Army, the units in 
Alaska and Hawaii have been selected for special training and 
special equipment under the new Army. It will be lethal, light, 
and be responsive as soon as possible. We are beginning our 
training, we're beginning our equipping, but if we don't have 
the transport to send them where the action is then I think 
it's a waste of effort. And, therefore, we have been trying our 
best to get the appropriate aircraft to transport these troops 
to the troubled spots, and that's the C-17 at this time. Do you 
agree with that?
    Admiral Blair. I would add one other comment to that, 
Senator. It's important to train in order to be able to make 
that move. And in my experience, it's co-location of forces 
that leads to the ability to train together and to move 
quickly.
    You can make fine plans on paper which draw forces from 
different places, but we find in deployment after deployment 
that when they show up, they haven't had the kind of back and 
forth face-to-face knowledge that we have in places like Hawaii 
with our people working together, and so on. It's not 
effective. So I think that the idea of getting all of the 
pieces of our reaction capability located together is 
imperative.

                                  IMET

    Senator Inouye. Well, one of the more frustrating problems 
Senator Stevens and I have in the Senate is the amount of IMET, 
as we pointed out.
    Most Americans are not aware of what IMET is all about. One 
would sense that it must be a huge program with the length of 
debate.
    Last year we appropriated $75 million. Seventy-five million 
dollars is a lot of money. But when you take it in the context 
of what the defense budget is like, it's almost 
inconsequential. It has an impact upon over 40 nations. And the 
amount that we had set aside for Indonesia was slightly over $2 
million. So it's not a whole lot of money, and yet some of my 
colleagues look upon this amendment that would prevent 
Indonesia from taking part in the IMET program as a punishment. 
We are punishing the troops, therefore, what they did in East 
Timor. And I've tried to suggest to them that we're punishing 
ourselves because the IMET program is a program to expose other 
officers destined to become leaders to how a democratic 
military conducts itself military to military and instead, we 
are telling them you do your own thing. Do you think my 
observation is correct?
    Admiral Blair. I absolutely agree, Mr. Chairman. When I 
have discussions with those who oppose IMET, I find that we are 
in violent agreement on the goals and we are in violent 
disagreement on the means. The goal for bringing military 
officers of other countries to the United States is so that 
they will learn how we do it in the United States and how the 
United States thinks about those countries. We don't turn them 
into Americans, but they come back speaking our language, 
understanding us, and they're people that we can work with, and 
they often go into very high ranking positions, and that very 
much is in the interest of the United States that they do that.
    I need to add that every officer we bring to training in 
the United States we carefully review the record of, through 
the Embassy, the Ambassador certifies that this officer is an 
officer of promise who has not been involved in reprehensible 
activity in the past. So those checks are done for every 
officer that participates.
    And my experience has been like yours over the years, that 
it's officers who have studied in the United States that we 
have something in common with that we can go to when we need to 
work together that are generally the ones that we can find 
common ground with when we have operations that we must conduct 
together and that it's very much in our interest.
    Senator Inouye. During the last budgetary cycle, because of 
our concern with the denial of IMET funds to Indonesia, we 
initiated the Regional Counter Terrorism Program that would 
permit you to have military to military contact with the 
Indonesian troops on a non-lethal training. Now this has not 
been cleared yet, but once it is cleared by the Department of 
Defense (DOD) is CINCPAC prepared to move forward on this?
    Admiral Blair. Very much so, Senator. I believe strongly 
that this program would be of benefit. We are prepared to 
nominate officers quickly as soon as the procedures are 
determined and we very much appreciate the initiative of the 
Committee in this regard.
    Senator Inouye. Admiral, our schedule did not provide us 
sufficient time to go to Korea. We would have wanted to but we 
did not. However, we were briefed in great depth on the 
situation in Korea. For example, that they are now preparing 
further for war. And they've said so publicly. They have not 
agreed upon a negotiated peace agreement with South Korea.
    And recently, this may sound facetious, but we heard 
reports that these are circus clowns dressed as American 
troops. American troops are the clowns.
    Am I correct to assume that this place is now becoming a 
bit more tense than it was, say, 1 year ago?
    Admiral Blair. There are various indicators of the 
situation on the peninsula, Senator. I think from the military 
deterrence point of view, the position of the United States and 
its ally, the Republic of Korea, is as strong today as it was 1 
year ago. There is no question that should North Korea initiate 
military aggression that it will be the start of the last 
Korean war. So I think deterrence is solid.
    The sort of military adventurism that we saw a couple of 
years ago in which North Korea was sending spy satellites down 
the east coast of the Republic of Korea and starting fishing 
wars by going over boundaries in the Yellow Sea seem to be 
still suspended. There has been no launch of a TAEPO Dong 
missile from North Korea, which is in accordance with the 
moratorium that North Korea agreed to several years ago. So the 
actions are still at that restrained level.

                                 KOREA

    The continued devotion of an enormous and disproportionate 
share of its resources to its military forces while it starves 
its own people continues in North Korea. We see continued 
modernization of North Korean Armed Forces at a time when 
people are shrinking in size and when increasing numbers of 
refugees are leaving North Korea because of the economic 
conditions. So there seems to be no let up in Korea's idea that 
it wants to present a military threat to the south and its 
deployed posture is still heavy on artillery to the south, 
still continues to build missiles. So we don't see instances of 
diminishment of that threat.
    On the rhetorical side, it's difficult to sort out just how 
you interpret what North Korea says. But there have certainly 
been strong attacks against the United States, strong attacks 
against our President that we have seen in recent months, and a 
strong level of rhetoric. And the incident that you described 
to me, I would think is in accord with that. So it's that sort 
of a mixed picture that we see in Korea.
    I'm not more concerned about Korea than I was a few months 
ago, but that it continues to be a very high level of concern 
and it's the area where the warning times are the shortest and 
something could happen in the quickest fashion of anywhere in 
the theatre.
    Senator Inouye. You are one of the great proponents of the 
cooperative engagement strategy. There are some in Washington 
who pooh-pooh this and say that it's not necessary to have 
peaceful dialog, an engagement of this sort or day-by-day, day-
to-day type contact.
    What benefits do we get out of the cooperative engagement 
strategy?

                              ARMED FORCES

    Admiral Blair. Mr. Chairman, I look for three things that 
the United States gets out of interacting with Armed Forces in 
our region. The first one is access. If we exercise with and 
interact with a country when the time comes that we need to fly 
airplanes through or establish an intermediate support base, we 
have a basis to do so.
    And, as you mentioned in your opening remarks, when it was 
time to flow forces through to Afghanistan, we called in some 
of those jets, our allies and partners responded and we were 
able to deploy quickly. So access is number one.
    The second one that I would add is competent coalition 
partners is what we seek from engagement. Whether it's an ally 
like Korea in which we have an integrated armed forces and an 
integrated contingency plan and we want to make sure that the 
Koreans operating on the flank of U.S. forces are skilled and 
trained, and if we can help the resources--the training that 
Korea puts into those forces with our efforts, that is in our 
benefit. That's one end, all the way down to a competent 
coalition partner in something like a peacekeeping operation 
when Australia led United Nations forces into East Timor. A lot 
of the training and interaction that the United States had done 
with those Armed Forces paid off as they were able to move in 
and work together and establish a peacekeeping force even 
though the United States was not heavily involved.
    In fact, I think the East Timor operation was a real 
success of how other countries can accomplish things that are 
in the U.S. interest without the United States having to run 
the whole show. And our cooperation over the years gave that 
sort of ability. So competent coalition partners is the second 
thing that we get from engagement.
    And the third thing that we get from engagement is 
influence. When we've been working with the armed forces of 
another country and if there's something the United States 
wants with that country, then we know the people to ask, we 
know the people to work with, we are going into a door that we 
know is open and we can get many quiet things done and some 
fairly public things done simply because we've worked with 
these people, we know who they are, they know who we are. And 
that shows up in little ways and it shows up in big ways. So 
those three things, it's not charity. We don't do this because 
we're tithing or something. We do this because it's in the 
interest of this country.
    Senator Inouye. What you've said is you've touched upon 
something very sensitive to the military in the Pacific region. 
They want to be treated as equals, and they are very pleased 
that you do so.
    We went to Singapore for many reasons. One of the foremost 
reasons, plus to thank the Government of Singapore for 
extending their helping hand, and we made a special tour of the 
new Changi Naval Base. And I think this is a demonstration of 
the results of your cooperative engagement strategy.
    Most Americans are not aware of this but the naval base was 
built according to specifications of the United States Navy. 
The depth of the harbor area was done to accommodate our 
carriers, something that not all of our naval bases can do. The 
length--the breadth of the naval base, Admiral, the storage 
areas were all built according to American specifications.
    The Singaporeans make no bones about it, that they want 
American presence there. In fact, they built all of the other 
facilities on their own. There wasn't a single penny provided 
by the American taxpayer. This is the sort of benefit we 
acquire from your program and I congratulate you, sir. That's 
why in the beginning when I said that we're going to miss you, 
I really meant it. We're going to really miss you. But I think 
your successor will carry on your programs, at least I hope so.
    Admiral Blair. Yes, sir. I'm sure he will. And some of the 
things you mentioned are a tribute not to the people that I 
leave, but to my predecessors. And, as you say, there has been 
a continuing emphasis of the Pacific Command. But I don't 
think--I think you're right, that most Americans don't 
understand some of the contributions made by our Asian allies.
    Japan, for example, contributes almost $5 billion a year to 
the support of our approximately 40,000 troops in Japan. Korea, 
where we have--I'm sorry, there are about 70,000 troops in 
Japan. About 40,000 troops in Korea, and Korea contributes 
almost $1 billion, and in fact has agreed to raise that 
contribution and in a couple of years will be contributing 50 
percent of the stationing costs there. So our Asian allies and 
partners make serious financial contributions to our forces 
over there. It's not just rhetoric.

                         CONCLUSION OF HEARING

    Senator Inouye. Well, as I indicated knowing that you'll be 
soon retiring from this position, as Senator Stevens said, this 
may be your final official appearance before the subcommittee.
    And so on behalf of the Committee, I'd like to thank you 
for your many years of service to our Nation, to the Navy and 
to the world. You've had a tough job, you had many challenges 
but you've done a superb job in meeting all of them. We're 
going to miss you. But in missing you, we'll remember your 
contributions and we pray that your successor will, well, read 
the book that you wrote in the Pacific. So we wish you the 
best. And with that, the subcommittee stands in recess.
    [Whereupon, at 11:35 a.m., Wednesday, April 3, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
